<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                   

                         [H.A.S.C. No. 116-11]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                         MEETING JOINTLY WITH

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                                   ON

                      U.S. TRANSPORTATION COMMAND

                      AND MARITIME ADMINISTRATION:

                    STATE OF THE MOBILITY ENTERPRISE

                               __________

                              HEARING HELD
                             MARCH 7, 2019
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-297                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

  

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
KATIE HILL, California               TRENT KELLY, Mississippi
JARED F. GOLDEN, Maine
ELAINE G. LURIA, Virginia, Vice 
    Chair
              Phil MacNaughton, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk

                                 ------                                

                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Melanie Harris, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     4
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     5
Wittman, Hon. Robert J., a Representative from Virginia, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3

                               WITNESSES

Buzby, RADM Mark H., USN (Ret.), Administrator, Maritime 
  Administration.................................................     8
Lyons, GEN Stephen R., USA, Commander, U.S. Transportation 
  Command........................................................     7

                                APPENDIX

Prepared Statements:

    Buzby, RADM Mark H...........................................    63
    Courtney, Hon. Joe...........................................    41
    Garamendi, Hon. John.........................................    45
    Lamborn, Hon. Doug...........................................    46
    Lyons, GEN Stephen R.........................................    47
    Wittman, Hon. Robert J.......................................    43

Documents Submitted for the Record:

    Ready Reserve Fleet & Surge Sealift Readiness Snapshot as of 
      06 March 2019..............................................    71
    Maritime Security Program (MSP) Fleet........................    72
    56 Ships of the National Defense Reserve Fleet...............    73

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................    77
    Mrs. Hartzler................................................    77
    Mr. Kelly....................................................    78
    Mrs. Luria...................................................    78

Questions Submitted by Members Post Hearing:

    Mrs. Luria...................................................    81
                      
                      
                      U.S. TRANSPORTATION COMMAND

                      AND MARITIME ADMINISTRATION:

                    STATE OF THE MOBILITY ENTERPRISE

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Seapower and 
            Projection Forces, Meeting Jointly with the 
            Subcommittee on Readiness, Washington, DC, 
            Thursday, March 7, 2019.

    The subcommittees met, pursuant to call, at 2:00 p.m., in 
Room 2118, Rayburn House Office Building, Hon. Joe Courtney 
(chairman of the Subcommittee on Seapower and Projection 
Forces) presiding.

 OPENING STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
CONNECTICUT, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Courtney. Now that Mr. Norcross is done, we can get 
started. [Laughter.] Exactly, yes. So this hearing is now open 
of the joint Subcommittees of Seapower and Readiness, and our 
witnesses are here today, General Lyons and Admiral Buzby. 
Again, the topic today is on USTRANSCOM [U.S. Transportation 
Command] and MARAD [Maritime Administration], the state of 
mobility enterprise and again, this is an issue that straddles 
both subcommittees. And as in past years, we have tried to do 
this on a joint basis so that when we get to markup we are all 
sort of going in the same direction.
    Before we get started, I would like to just take a moment 
of privilege to recognize someone in the audience here today, 
who is the former chair of the Seapower Subcommittee who's 
visiting the Hill this week and that is former Congressman Gene 
Taylor from Mississippi. And thank you, Gene. It is great to 
see you here.
    So good afternoon. As I said, this is a combined hearing of 
the Seapower and Projection Forces Subcommittee. And, again, by 
way of background, the two subcommittees hold this joint 
hearing each year to receive testimony on the posture of 
TRANSCOM and also the MARAD mission, which falls under joint 
jurisdiction of the T&I [Transportation and Infrastructure] 
Committee and the House Armed Services Committee.
    This year comes in an important moment for several of the 
major mobility programs. The Department of Defense recently 
completed a new Mobility Capabilities and Requirements Study as 
directed by Congress in 2017. Members of the Seapower 
Subcommittee had already the opportunity to review the 
strengths and significant weaknesses in that report as it 
guides future investment in our mobility forces.
    In addition, the Air Force has now accepted its first new 
tanker aircraft, but technical deficiencies and other issues 
continue to plague the program as our existing tankers advance 
towards near senior-citizen status. On the sealift side, we 
continue to face the challenge of recapitalizing an aging Ready 
Reserve Force as well training ships for our State maritime 
academies.
    Unfortunately, due to the delayed budget submission this 
year, we do not have the benefit of reviewing specific 
proposals and funding levels with our witnesses today. However, 
I would remind our members that these two subcommittees have 
exercised independent judgment outside of the administration's 
budget proposals in the last 2 years in order to address these 
persistent obstacles to achieving the goal of a high-
functioning mobility enterprise.
    For example, last year the administration proposed cutting 
the Maritime Security Program [MSP] by nearly 30 percent. The 
Maritime Security Program is a vital component of our military 
strategic sealift and global response capability. MSP is 
designed to ensure that the United States has U.S.-flag 
commercial sealift capability and trained U.S. citizen merchant 
mariners available in times of war or national emergencies.
    It is good value for the money, providing a fleet of 60 
cargo vessels for less than a third of the cost of just one 
Arleigh Burke-class destroyer. The Seapower Subcommittee 
rejected the proposed cut in the fiscal year 2019 NDAA 
[National Defense Authorization Act] and the fiscal year THUD 
[Transportation, Housing and Urban Development, and Related 
Agencies] Appropriations Bill supported that committee's 
action.
    The administration also proposed insufficient funding for 
the National Security Multi-Mission Vessel [NSMV] program, 
which provides training vessels for use by the State maritime 
academies for cadets for a career in the merchant marine 
industry. It also proposed procuring used vessels for the NSMV 
program rather than building new vessels in U.S. shipyards. 
This subcommittee rejected both proposals, authorizing 
sufficient funds for procurement of one NSMV and including 
language restricting MARAD from procuring used vessels for the 
program.
    Due to the imminent retirements of certain Ready Reserve 
Force [RRF] vessels, the administration initially proposed to 
recapitalize the RRF based on a strategy heavily reliant on 
foreign-built vessels. Seapower, again, rejected that proposal 
and required in law that TRANSCOM provide a plan to procure new 
sealift vessels built at shipyards in the U.S. While I commend 
the Navy for exploring options to use a single hull form to 
replace multiple sealift missions, I believe the strategy will 
prove unaffordable. I think a more practical solution would be 
to take a proven mature design from commercial market and begin 
building that in U.S. shipyards. This would not only be a 
quicker way to recap our sealift force, but it would also have 
great benefits to our shipbuilding industrial base. And I would 
be interested in hearing your opinions on that strategy.
    Winston Churchill once stated that, ``Victory is the 
beautiful, bright-colored flower. Transport is the stem without 
which it could never have blossomed.'' I hope the hearing today 
will be beneficial to the members and to the public as we 
review the importance and readiness of our logistics forces and 
their central role to the success of our Armed Forces in 
conflict. And with that, I yield to my friend, the ranking 
member, Mr. Rob Wittman, for any opening remarks.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 41.]

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
    VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Thank you, Mr. Chairman. Thanks much for your 
leadership on this. And I want to thank my Readiness colleagues 
also for this joint hearing. I think this venue is particularly 
important to ensure Congress is focusing on critical and 
sometimes unheralded national security concerns. Additionally, 
I want to thank General Lyons and Admiral Buzby for testifying 
on the state of our mobility forces.
    Since reviewing this portfolio last year, one thing is 
certain. Our aged Ready Reserve Force of 46 ships which 
averaged 43 years of age a year ago now averages 44 years of 
age. With no recapitalization in place and only a distant hope 
that the Navy will find this a priority, I continue to be 
perplexed as to how the Army and the Marine Corps expects to 
get to the future battlefield on these aged ships.
    Last year, the Navy proposed a three-tiered strategy of 
extending the service life of the existing force and procuring 
used vessels and preparing a new construction strategy. 
Unfortunately, each of these three tiers has failed to deliver. 
And on top of this, our logistics force has continued to 
atrophy. Congress has done what needs to be done in this effort 
and authorized the procurement of seven used vessels to begin 
replacing the Ready Reserve Force.
    We have done the work on our end. Now, Navy needs only to 
lift their fingers and sign a contract to begin and procure 
these readily available vessels. I hope that we can begin to 
better address this deficit issue in the fiscal year 2020. On a 
positive note, I am pleased to understand that General Lyons 
has also recognized this critical shortfall and has identified 
the surge sealift force as his number one readiness concern.
    As for aerial refueling forces, the Director of Cost 
Assessment and Program Evaluation, also known as OSD [Office of 
the Secretary of Defense] CAPE, authored a recent assessment of 
the overall refueling forces force structure. In this 
assessment, OSD CAPE opined that the refueling force structure 
requirements today were the same as was previously identified 
in a 2013 mobility study. This is in sharp contrast to 
Secretary Wilson's force structure assessment, where her vision 
states refueling air forces represented one of the biggest 
shortfalls in her ``the Air Force we need'' proposal.
    Under the Secretary of the Air Force's plan, aerial 
refueling would have seen significant growth, increasing from 
40 to 54 squadrons. I look forward to better understanding the 
aerial refueling force structure challenges General Lyons 
identified as his second most important readiness concern.
    Finally, I continue to be concerned about the modernization 
of our mobility forces and their ability to operate in a 
contested environment. While sensor nodes and defensive 
countermeasures exist in a multitude of our mobility platforms, 
I think that we need to significantly improve organic 
capabilities to ensure deep penetrating capabilities in a 
contested environment. I think that this concern is 
particularly acute with our tanker force structure. I look 
forward to better understanding how TRANSCOM expects to best 
posture their forces and their modernization plan to ensure 
mobility success in a contested environment.
    As I reflect on the state of our mobility forces, I think 
that we have made great strides in our logistics, and we 
constantly measure our success based on the mobilization that 
occurred during Desert Storm. And I am reminded of what 
Lieutenant General Frederick Franks, the VII Corps Commander, 
then responsible for our Desert Storm forces Left Hook as it 
was called, in response to questions about his concerns during 
this operation, he indicated that if you forget logistics, you 
lose.
    My fear is that we have allowed our logistics forces to 
become a seam issue and our ability to project forces in a 
contested environment is becoming increasingly compromised. I 
look forward to pursuing options that we might begin to change 
our mobility forces, so that we might become more agile and 
lethal when addressing our most challenging warfighting 
scenarios. I thank the chairman for organizing this important 
hearing and I yield the balance of my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 43.]
    Mr. Courtney. Thank you, Rob. And I would now recognize Mr. 
Garamendi, the chair of the Readiness Subcommittee.

    STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. Thank you, Mr. Courtney, Mr. Wittman. My 
goodness, I love your passion on this issue. I love your 
leadership. You really moved this thing forward. The work that 
I was doing in the previous Congress with the Coast Guard 
Maritime [Coast Guard and Maritime Transportation Subcommittee] 
dovetails directly with what we have before us today and your 
work in the previous Congress really brought us forward.
    I am going to read this just because my staff will be 
unhappy if I don't, so I will do it, but you really covered 
most of it. First of all, Admiral Buzby and General Lyons, 
thank you. I appreciate the conversations we had before this 
hearing. And I am going to cover one other thing before I end 
here. I really look forward to this discussion, how TRANSCOM 
and MARAD are poised to meet the mobility and the logistical 
demands of a major contingency.
    Those who are new to this issue, obviously not my 
colleagues here, may be surprised by the degree to which this 
enterprise requires significant collaboration within and 
outside the Department of Defense, particularly with the 
commercial sector. I am eager to learn how TRANSCOM and MARAD 
are navigating their key relationships with the military 
departments and importantly, the industrial base.
    Moreover, General Lyons and Admiral Buzby, I encourage a 
very frank discussion today. We are not going to dance around 
this issue. Obviously my colleagues in their impassioned 
opening statements made that clear that they won't either. The 
issue of mobility is absolutely crucial. It is often 
overlooked, but you can't go to war without it. I really love 
the quotes you guys found. Those are really good.
    So I won't go into any more of my own quotes here, maybe I 
am not even capable of establishing one. Our ability to take 
the fight to the enemy is predicated on the proper functioning 
of the aircraft and vessels needed to move our troops and their 
equipment. As yet, I am concerned with the services' continuing 
ability or not ability to prioritize investments with combat 
power without sufficient regard to the required logistics and 
mobility assets.
    And so as our witnesses are keenly aware, advanced 
platforms and technologies will have little opportunity to 
matter if we lack the ability to project that power and get it 
where it needs to be done. It is critical that we have robust 
strategy for recapitalizing our aging sealift fleet. In 
particular, I would like to understand how the committee could 
further assist in doing that.
    Another issue is before us, and that is the issue of the 
personal property of the men and women of the military. We 
could probably spend several days on this issue. General Lyons, 
we talked about it. I told you that I would like to see your 
strategy and the way in which you intend to pursue and why it 
is the right way to do it. I won't go further into this except 
to say this chart that I asked you to prepare when we talked 
yesterday is before us. Those red X's and the yellow X's ought 
to give our friends with whom we spent most of the morning, the 
combatant commanders, a real serious heartache, headache, and 
indigestion. This chart represents why we are here today and 
what we are going--what we need to do to address it. With that, 
I yield back.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 45.]
    Mr. Courtney. Thank you, John. And I now recognize the 
ranking member of the Readiness Subcommittee, Mr. Lamborn.

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you. I want to thank you all for having 
this hearing, Mr. Chairman. And today, the subcommittee will 
hear from the commander of Transportation Command and the 
administrator of the Maritime Administration on how well DOD 
[Department of Defense] is postured to meet the heavy and 
sustained logistical demands of a major conflict. And I have 
heard some great quotes from Winston Churchill and Lieutenant 
General Franks, so I am going to throw in a quote, but I don't 
know who made it. I just know the quote itself and that is, 
``Amateurs talk about strategy, professionals talk about 
logistics.''
    And I think that that highlights the importance of 
logistics when it comes to fighting warfare and being 
successful. And that is why you two men are doing what you do 
and that is why you are here today. While TRANSCOM has 
operational control of some Air Force and Navy-owned aircraft 
and ships for this mission, a major contingency will require 
the substantial assistance of the U.S. commercial air and 
shipping fleet as well as the domestic rail industry.
    Further, TRANSCOM must rely on the military departments to 
budget for critical organic assets such as ships, planes, 
reinforced railcars, and ports, and commercial air, rail, and 
shipping industry to willingly participate in defense 
logistical programs. TRANSCOM can influence but cannot direct 
Army, Navy, and Air Force budget decisions nor commercial 
industry business decisions.
    We understand that there are some deficiencies given this 
complex system, and that these must be addressed. Among these 
are the Air Force's aging tanker fleet and some near-obsolete 
vessels--Chairman Garamendi made reference to that and it is on 
our placemat--that are part of our surge sealift fleet. We 
welcome the witnesses' perspective on these issues and any 
recommendations that they may have.
    And finally, we understand that TRANSCOM intends to change 
the management structure of the personal property shipment 
program, which arranges for the movement of military family 
household goods from base to base. While this program sorely 
needs improvement, any changes contemplated must be well-
thought-out measures that provide for far better service to 
military families and not just change for change sake.
    And I have it on good authority now that that quote I gave 
was from Omar Bradley. To put things into context. Thank you, 
Mr. Chairman and Mr. Chairman, and I look forward to the 
witnesses' testimony.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 46.]
    Mr. Courtney. Thank you, Mr. Lamborn. Google is a wonderful 
thing. So now I will turn this over to the witnesses and 
again--actually, General Lyons, real quick, maybe at the outset 
you could just sort of explain what the placemat is, which 
again, I think, I agree with John, it is very powerful.
    [The placemat referred to can be found in the Appendix on 
page 71.]
    General Lyons. Chairman, I can. Distinguished members and 
chairmen, ranking members, before you, you have a placemat that 
looks like this. It depicts the 61 vessels, 15 of them are the 
surge sealift fleet managed by the Military Sealift Command 
[MSC], the remainder, the 46, are managed by the Maritime 
Administration.
    And what you can see depicted on the map here is in blue 
represents the hulls that exceed 30 years of age. And I only 
mention that because if I looked at commercial industry, the 
average age would be about 19 years. And so they look to start 
retiring their vessels about the 15-year mark and kind of--they 
know that the M&R [maintenance and repair] on the backend is 
much more expensive to maintain an old ship.
    The red X's over the top of the vessels represent those 
vessels that do not currently have certificates of inspection 
from United States Coast Guard. And the yellow X's represent 
those ships that currently require unscheduled maintenance to 
be underway, that is an additional 13 ships. And then I would 
also point out----
    Mr. Courtney. General, could you pull the microphone just a 
little closer? Thank you.
    General Lyons. Yes. Sorry about that, Chairman. And then I 
would also point out to the left of the chart represents the 26 
steam propulsion ships that are in the fleet. I only highlight 
this because by 2021, it will be--the Department of Defense 
will be the sole owners of steamships underneath the U.S. flag. 
And by itself, steam propulsion is not an issue, but the 
manners to crew and the level of proficiency that comes from 
the merchant marine is dwindling very, very rapidly and Admiral 
Buzby can wax eloquently on that.
    Chairman, what I would leave you with here is today if you 
ask me how much of our sealift capacity, particularly the 50 
roll-on/roll-off ships, could we generate, as I looked at this 
in my update brief yesterday, that is about 65 percent of the 
capacity, which is not a passing grade.
    Mr. Courtney. So, again, whatever order you want to 
proceed, be my guest.

    STATEMENT OF GEN STEPHEN R. LYONS, USA, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Lyons. Chairman Courtney and Chairman Garamendi, 
and Ranking Member Wittman and Ranking Member Lamborn, and 
distinguished members of the committee, it is an honor to 
appear before you today and represent the incredible men and 
women of United States Transportation Command, and I am pleased 
to join Administrator Buzby, who is a great friend of the 
Department of Defense and a great friend to the United States 
Transportation Command.
    Distinguished members, I could not be more proud of the 
members of the United States Transportation Command team. Every 
day they project and sustain the force globally, and our global 
deployment networks, our transportation capacity in air, on 
land, and over the seas, and our global command and control 
capabilities, combine to provide the United States with a 
strategic comparative advantage unmatched by any other nation 
around the world.
    We maintain this advantage with the help of our allies and 
partners, who are key to regional access and basing needed for 
DOD global reach. Somewhere on the globe at this moment, a 
TRANSCOM aircraft is touching down every 3 minutes, TRANSCOM 
ships are underway, trains are loading, aerial refuel missions 
are in orbit overhead, and planes converted to intensive care 
units are moving our Nation's ill and injured.
    We must never take our success for granted, as you know, 
and I would like to take this opportunity to point out, as the 
chairman indicated, my number one concern for the joint 
deployment enterprise, and that is sealift readiness. As I 
mentioned today, our sealift fleet is able to generate only 65 
percent of our required capacity and is rapidly approaching end 
of useful life. The need to recapitalize is urgent. I believe 
accelerating the used vessel purchases as Chairman Courtney 
mentioned with the authority Congress provided in the last 2 
years is probably the most practical way ahead.
    Before closing, I would like to acknowledge the recent 
criticism of the Department of Defense household goods program. 
And I will simply say that I agree with the criticisms 
regarding insufficient capacity during peak and the level of 
accountability within the Department. In consultation with the 
service secretaries--I met with each of the service 
secretaries, I met with each of the service chiefs, and on 
behalf of the Department, TRANSCOM is leading the issue to 
restructure our relationship with industry in an effort to 
improve quality, capacity, and accountability. But I want to 
make sure, just to be clear, the Department will never 
relinquish responsibility to private industry.
    In closing, proud to support DOD's enduring mission of 
providing combat credible military force to deter war and 
protect our national security interests. Our Nation relies on 
TRANSCOM to respond with an immediate force on short notice and 
seamlessly transition to project a decisive force when needed. 
I am fully committed to retain the strategic comparative 
advantage. I thank you for your support to the Department and 
to TRANSCOM and I look forward to your questions, Chairman.
    [The prepared statement of General Lyons can be found in 
the Appendix on page 47.]
    Mr. Courtney. Thank you, General. Admiral.

  STATEMENT OF RADM MARK H. BUZBY, USN (RET.), ADMINISTRATOR, 
                    MARITIME ADMINISTRATION

    Admiral Buzby. All right. Good afternoon, Chairman 
Courtney, Chairman Garamendi, Ranking Members Wittman and 
Lamborn, and members of the subcommittees. I appreciate the 
opportunity to discuss the Maritime Administration's role in 
supporting the Department of Defense's strategic sealift 
capabilities.
    U.S. strategic sealift consists of government-owned vessels 
and assured access to a fleet of privately owned, commercially 
operated U.S.-flag vessels and intermodal systems and most 
importantly, the civilian mariners that operate them. Together, 
this group of ships and mariners transports equipment and 
supplies to deploy and sustain our military forces globally. 
However, our sealift enterprise faces critical challenges to 
providing the readiness assurances needed to meet the global 
threats we now face.
    The Navy-funded MARAD-operated Ready Reserve Force is 
comprised of government-owned ships in the National Defense 
Reserve Fleet. The RRF fleet is maintained in a reduced 
operating status of 5- or 10-day activation readiness to 
support sealift missions during major contingencies or special 
tasking.
    When needed, these 46 RRF vessels plus the 15 MSC sealift 
vessels provide the initial surge of sealift capacity with U.S. 
commercial vessels providing the follow-on sustainment. The 
current RRF fleet, as Congressman Wittman noted, has an average 
age of 44 years and is becoming increasingly difficult to 
maintain at required readiness as you can see from your 
placemat. Until RRF fleet recapitalization is complete, 
readiness maintenance challenges will continue. The escalating 
repair cost and availability of shipyard facilities for 
emergent maintenance and near-term service life extensions are 
concerning.
    We are taking steps toward implementing the Navy's plan to 
recapitalize the RRF fleet known as ``Sealift [That] the Nation 
Needs.'' A key part of that three-pronged plan is the 
acquisition and conversion of used ships to the RRF beginning 
with the purchase of two vessels as authorized by the fiscal 
year 2018 NDAA. In January, the Navy in coordination with 
USTRANSCOM provided MARAD with the desired characteristics for 
replacement ships to be acquired from the commercial market.
    MARAD then released a request for information to identify 
suitable ships and responses are due back later this month. 
MARAD is also working to replace training vessels that we 
provide to the six State maritime academies. These vessels are 
also elderly and require replacement. We appreciate the support 
that Congress has provided for the school ship recapitalization 
program, the National Security Multi-Mission Vessel.
    Two are currently funded, one each in fiscal year 2018 and 
2019. MARAD has implemented the acquisition strategy and the 
first of the two new training ships is expected to be delivered 
in 2023.
    Our Nation's strategic sealift is augmented by the U.S.-
flag commercial vessels. Of the approximately 50,000 large 
ocean-going commercial vessels in the world today, fewer than 
200 sail under the U.S. flag including 82 vessels operating 
exclusively in international trade. The remaining 99 operate 
almost exclusively in Jones Act trades. These types of vessels 
are critical to the employment base for mariners that we need 
for the RRF.
    Congress established the Maritime Security Program, cargo 
preference laws, and the Jones Act to foster and develop--
foster the development and encourage the maintenance of a 
robust merchant marine. The MSP helps maintain a fleet of 60 
militarily useful ships operating in international trade in 
peacetime and employing U.S. mariners fully qualified for 
sealift operations.
    Importantly, the MSP assures DOD access to a critical 
global network of intermodal facilities and transport systems 
that we simply would not be able to replicate. Cargo preference 
laws requiring the transport of 100 percent of DOD cargo and 50 
percent of other government cargos in U.S.-flag ships supports 
the sustainment and readiness of our international commercial 
fleet and the continued employment of American mariners.
    Access to a pool of qualified mariners from a robust 
commercial fleet is essential to maintaining readiness. As I 
testified last year, I am deeply concerned about our ability to 
muster adequate number of mariners to operate the sealift fleet 
needed for surge and sustainment operations during a 
mobilization lasting more than about 6 months. And without 
question, the Jones Act is absolutely foundational to our 
Nation's ability to maintain a merchant marine in peacetime 
that will be there to serve this Nation in time of crisis.
    As our merchant marine flag says, `'In peace and war.'' 
Thank you for the opportunity to testify today and discuss this 
critical portion of our Nation's military capability. I 
appreciate your support for the men and women of the U.S. 
merchant marine and I look forward to your questions.
    [The prepared statement of Admiral Buzby can be found in 
the Appendix on page 63.]
    Mr. Courtney. Thank you to both witnesses. I am going to 
reserve my questions until the end, so at this point, then, I 
would yield to the ranking member, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I will go ahead and 
do the same in deference to our members to go and let them--let 
them question--ask questions.
    Mr. Courtney. Mr. Garamendi.
    Mr. Garamendi. You guys are establishing a terrible 
precedent. We have got to end this practice right here. I won't 
take too long here. I had the pleasure of going over almost all 
of these questions with the witnesses in the previous days, but 
I think there are a couple of things that we need to get on the 
record here, some of which you have already talked about. I 
want to be very specific about how we are going to carry--how 
you intend to carry out the plans that were in the last year's 
NDAA.
    You mentioned it. I want to go--I want you to go into 
detail, Admiral Buzby, if you would start that--the plan, buy 
ships, build ships, where are we, and as you go through that, 
could you keep in mind the placemat, and specifically the 
critical ships that are absolutely necessary immediately if 
needed. So if you can kind of pull this together, how are we 
going to carry out----
    Admiral Buzby. Yes, sir.
    Mr. Garamendi. Okay. Thank you.
    Admiral Buzby. Sure. Thank you. So, again, the three-
pronged plan, service life extension, buy new or used ships, 
and build new ships. The build of the new, that is still 
several years down the road. The Navy is focused on doing that. 
I don't expect to see those ships for 5 or 6 years at the very 
earliest. So I am really concentrating on the two pieces that I 
have that are nearest to me. The service life extensions, we 
are being given money by the Navy to finance some of those 
service life extensions. However, a lot of that money we are 
having to put toward getting rid of some of these X marks that 
you are seeing on these ships right now. We are having to--the 
pace of repair is outpacing the pace of service life extension.
    Mr. Garamendi. Yes. How much are you spending on that? You 
are basically putting money into a sinking ship?
    Admiral Buzby. That is--well, so far they haven't sunk, but 
we are keeping them afloat with that money. I mean a lot of 
these--a lot of the Xs that you see here right now are for 
steel repairs. They are cropping out wasted steel in the ships 
that we are finding in--that are part of the ship's structure 
that we need to ensure that they have structure before we even 
modernize it. So a lot of that effort is going toward there. So 
we are not making any headway toward extending that service 
life.
    As I mentioned in my statement, we are beginning the 
process of procuring the new or used ships. We have that 
request for information on the street right now. It is due back 
on the 16th of March, which will help inform us on what is out 
there, and we are looking primarily for roll-on/roll-off ships; 
the specifications we put out there were to replace those high-
priority ships that General Lyons has said are necessary to 
move the forces he needs to move, so those--that is what we are 
focusing on right now.
    So when we get that response back from those RFIs [requests 
for information], we will have a good sense for what is out on 
the market and about how much it is going to cost us for a ship 
that is about the 15-, 18-, to 20-year-old point that we are 
looking to bring into the force.
    Mr. Garamendi. I am concerned about this. Is the priority 
for those ships that are least likely to float, operate, or is 
the priority for those ships that are least likely to float and 
most necessary for the combatant commanders? Combination of 
those two----
    Admiral Buzby. Yes, I think--I think yes to everything. I 
mean, we are going to have to look--take a very good hard look 
and prioritize the importance of the ship by its--and its 
condition. Some of these ships are in much better condition 
than others. Some have just deteriorated more----
    Mr. Garamendi. That is the ship--that is the ship 
condition. At the same time, there are specialty ships here. I 
noticed some of those are X-ed out also.
    Admiral Buzby. Right.
    Mr. Garamendi. Are those specialty ships then a priority 
because they--there is no other ship available, that that one 
is not available? So I am looking at two different criteria to 
establish where you go first.
    Admiral Buzby. Right. So the initial push and the request 
for information has been for the roll-on/roll-off ships. We 
have not begun to address the replacement of the specialty 
ships yet; we are looking at plans for them, we are looking at 
the type of ships that could be used to replace those, but----
    Mr. Garamendi. In the remaining 21 seconds, I will just put 
it this way to you. There are two different criteria here; they 
have to be merged, and I want to be quite certain that they are 
indeed merged. There are these specialty ships that maybe that 
the Marines or someone else needs a very certain type of ship 
that is about sink and therefore that becomes a priority. If 
you can't find it out there in the big world, that may have to 
be built. So I want you to get into that. Thank you, and I 
yield back.
    Admiral Buzby. Right. Sure.
    Mr. Courtney. Thank you. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. General Lyons, just 
two questions for you and then we will move on to other folks. 
Your testimony is clear and compelling about the need to 
improve our national sealift capacity to deploy Army forces 
overseas. And, of course, in order to get to domestic seaports, 
Army equipment must travel by rail from their home station to 
the port, from fort to port. Please describe how you coordinate 
rail travel and the importance of our rail system.
    General Lyons. Sir, thanks for the question because it is 
very important from a CONUS [contiguous United States] power 
projection platform perspective that we have the right--the 
appropriate highway network, rail network, and seaport network 
that you referred to. So inside of our headquarters is the 
executive agents for the Department, we look at those very 
issues. So railways for national defense, for example, and we 
assess the suitability and sufficiency of the connector routes 
from our power projection platforms out to our 23 strategic 
ports. And we assess today that that--those rail networks are 
in good condition, sir.
    Mr. Lamborn. Excellent. That is good to hear. And finally, 
we are happy to hear that you and the military services are 
pursuing improvements to the personal property shipping 
program. At the same time, significant change to a longstanding 
if flawed system must be done carefully, especially in an 
industry with a multitude of small business providers. How will 
you ensure small business will be treated fairly in the new 
system at the same time as making sure our military families 
are treated with the respect they deserve?
    General Lyons. Sir, it is our intent on this restructure 
with the commercial industry actually to present the conditions 
through which we can grow capacity. One of the fundamental 
issues we have is we have insufficient quality capacity during 
peak season and the carriers really struggle with that. And so 
we would like to restructure our relationships so that it is 
not an annual transactional basis, 400,000 transactions in a 
year, but it is more longer term and we are incentivizing the 
appropriate level of investment.
    So it is how industry--some industry reps are very 
supportive, some industry reps are very concerned and that is 
very understandable. It is a very complex enterprise, but what 
we want to do is grow capacity, not shrink capacity. I need as 
many if not more moving companies out there providing quality 
service at the curbside, sir.
    Mr. Lamborn. Thank you. Mr. Chairman, I yield back.
    Mr. Courtney. Thank you, Doug. Mr. Norcross.
    Mr. Norcross. First of all, I want to thank the ranking 
member and the chairman from Seapower for diverting their 
questions. The other chairman will have to work on that a 
little bit.
    [Laughter.]
    Mr. Garamendi. Sir, you are also a chairman, I am sure you 
will waive yours, too?
    Mr. Norcross. We will work on that one. Obviously, this has 
the attention of all of us, that we can have the greatest 
flying fleet in the world but if we can't get it refueled, it 
is a big problem. Several years ago we had General McDew in, 
who said to a question I asked him, what keeps you up at night, 
and he said refuelers. Well, we are still here. So, General, 
when we look at the news in the last 48 hours, there are some 
very big concerns. The good news at least for a day or two is 
that the delivery of the new KC-46 has started. The bad news 
within 48 hours is they came with a little extra baggage.
    We now understand that program is on suspension of 
deliveries. Here we are with another setback. What is that 
going to do for your scheduling for bringing in the new fleet? 
And in many ways more importantly, how do you handle the 
existing ones that we are putting--keeping together with tape?
    General Lyons. Sir, I think you alluded, our aerial refuel 
capability is really the lifeblood of our joint forces 
capability to project power in an immediate kind of fashion for 
almost--not exclusively but the majority of our mission sets as 
a department, and it is, from the TRANSCOM perspective, the 
most stressed capability in terms of levels of sufficiency are 
not where they need to be and we are growing that. And I was 
frankly pretty pleased to see the Air Force's decision to 
accept the KC-46 and I know there are some issues that they are 
working through and I have full confidence in the Air Force to 
work through those and work with Boeing on a corrective action 
plan.
    But I think over time, we are headed in the right direction 
with the investment in the KC-46. And we are also working with 
the Air Force to ensure that we don't have a dip in capacity--
operational capacity as we go through the conversion. So the 
Air Force is leaning forward in this. I am very grateful for 
what they are doing here.
    Mr. Norcross. Do you think this extra tools that were left 
in there which suspended it, is going to be weeks, months until 
they make the corrective action?
    General Lyons. Sir, I don't have a sense for that. I will 
defer to the Air Force, you know, as they work the corrective 
action plan with Boeing. I completely trust their level of 
expertise to make the right decision.
    Mr. Norcross. Are they giving you any indication, because 
you are the one who has to make it work?
    General Lyons. I am. I mean, our air component, General 
Maryanne Miller is phenomenal, she is the head of the mobility 
air forces. We talk frequently obviously and I have full 
confidence that they will get to the right solution set and 
we're flying safe airplanes.
    Mr. Norcross. Thank you. Admiral, you mentioned the Jones 
Act and that has been the backbone in many ways to keep what 
little fleet we have going. There are some discussions now for 
Puerto Rico and they waived the Jones requirement right after 
the hurricane so we could get all the help we could get, which 
most of us understand.
    But now with a switching to the LNG [liquified natural gas] 
for power, they are looking to get a waiver from the White 
House for up to 10 years. I would love to get your view on this 
and what this means for the future of those you will need.
    Admiral Buzby. All right. Thank you for the question, sir. 
As you rightfully cited, Jones Act is absolutely foundational, 
and we in the Department of Transportation and Maritime 
Administration particularly, we are going to live and die on 
the Jones Act.
    There are provisions in the Jones Act for waivers that are 
very specific, it has to be for national security impact. So we 
are aware that the waiver has been requested by the governor. 
That has to be evaluated based on impact to national security, 
and I think that process is working its way through the system; 
it has not come to MARAD yet. So if there is a case to be made 
it will have to be made.
    Mr. Norcross. So in your view, would it be a positive step 
for the Executive order or a negative step?
    Admiral Buzby. Well, again, if there is justification for 
such a waiver, we will have to just make the----
    Mr. Norcross. I shouldn't put you in that position----
    Admiral Buzby. Right.
    Mr. Norcross [continuing]. Against the President. We know 
how critical this is, I will leave you one bit of good news. 
Each of us had the honor of making recommendations to the 
different academies. For the first time, the highest number of 
applicants were for the merchant marines.
    Admiral Buzby. I am happy to hear that, sir.
    Mr. Norcross. So it will only take another 10 years to get 
them experienced----
    Admiral Buzby. I was appointed from New Jersey myself.
    Mr. Norcross. Thank you. And I yield back.
    Mr. Courtney. Thank you. Mr. Scott.
    Mr. Scott. Thank you Mr. Chairman. And gentlemen, I want to 
talk about the issue with regard to steam and education if you 
will. I think we have six maritime academies in the United 
States.
    And my question is, because this issue of steam is 
something that has been brought to us before, are we mandating 
that students take classes in this area to graduate and with a 
degree from those academies?
    Admiral Buzby. Yes, sir. All of our graduating third 
assistant engineers that have unlimited horsepower licenses, so 
all of those that are coming out of the six State maritime 
academies plus Kings Point all have steam endorsements when 
they graduate.
    Mr. Scott. But if I can follow up with that a little bit, 
it is not the issue I don't believe, and correct me if I am 
wrong, but the reason we have the yellow marks on the ships is 
not that we don't have somebody who is capable of operating 
that ship from a captain standpoint; is it not from a 
maintenance standpoint on the steam turbines?
    Admiral Buzby. So far we have sufficient steam engineers as 
we sit right now to operate those ships and to fully man them 
when we have to activate those ships. And the challenges of 
maintenance are not strictly just to steam plants, there are 
diesel ships on here as well that are suffering the same. It is 
the structure of the ship more than it is the power plant that 
is suffering the readiness issues.
    Mr. Scott. Okay. At least it appears that there is a larger 
percentage of steamships that are not operational than there 
are on the other ships.
    Admiral Buzby. They tend to be the older ships.
    Mr. Scott. That was my next question, was that simply due 
to the age of the ships. I know that you are a graduate of the 
Merchant Marine Academy, I just want to express my support for 
that academy and how important it is to our national security.
    Admiral Buzby. Thank you, sir.
    Mr. Scott. And I took my kid up there to look at it and he 
opted for Valdosta State University and so they hit my credit 
card this morning. The service life extensions that the Navy is 
currently funding for our ships, these maintenance contracts 
are obviously, this isn't something that many times happens in 
one fiscal year or in many cases even two fiscal years.
    Is there a way for us to do that in a more efficient manner 
where it is better for our contractors and for us, multiyear 
appropriations if you will?
    Admiral Buzby. That is a tough one to answer. We work very 
closely with the Navy, our funding source, and we lay out for 
them our proposed what needs to be extended.
    A lot of the time on the ships it is control systems for 
and replacement of obsolete equipment, equipment that is not 
even produced anymore. So those are the kinds of things that 
enable that ship to extend its service life. We lay out a pace 
with the Navy that we would like to achieve especially when it 
comes to some of the equipment that is less supportable than 
others.
    And the Navy works with us in terms of providing that level 
of funding back to us. And that ranges anywhere between about 
$800,000 to $3.5 million per ship to do some of those service 
life extensions.
    Mr. Scott. And so I assume there has been an evaluation 
done on service life versus the purchase of new used and which 
ones.
    Admiral Buzby. Right. There is a business case that the 
Navy is doing that we have assisted with, we provided input to. 
Some of the ships that are more critical and more difficult to 
replace, some of the specialty ships as Mr. Garamendi mentioned 
that lend themselves to, they're in slightly better condition. 
The idea is we extend these ships out to 60 years in some 
cases, if a case is there to be made to do that.
    Mr. Scott. So one last question if I can and following up 
just a little bit on what Mr. Garamendi said, ships like the SS 
Cape May that move barges if I am not mistaken.
    Admiral Buzby. Right.
    Mr. Scott. We only have two of those.
    Admiral Buzby. Correct.
    Mr. Scott. Right? I assume we keep one on the East Coast, 
one on the West.
    Admiral Buzby. Yes, sir.
    Mr. Scott. If we needed to go to the private sector to 
lease a barge carrier, is that available in the private sector, 
or is that something that if we lost one of those ships that we 
would simply have to start over?
    Admiral Buzby. Well, we actually have a sister ship in 
reserve status down in Beaumont, Texas, that could be 
potentially used.
    Those types of ships specifically aren't in commercial use 
anymore; they are very specific, which is a heavy-lift ship. 
There are other ships, more modern ships that can do a heavy-
lift type mission. So when we ultimately have to replace these 
ships it will likely be with a ship that looks a bit different 
but can do the same sort of mission.
    We are also looking at the possibility of re-engining a 
ship like this. You know, the hull in these ships are pretty 
good shape. It's the steam power plant----
    Mr. Scott. Sure.
    Admiral Buzby [continuing]. That is more difficult. So that 
is not out of the realm of possibility either.
    Mr. Scott. Thank you for your time and your service.
    Mr. Courtney. Thank you. Congresswoman Luria.
    Mrs. Luria. Well thank you, General Lyons and Admiral 
Buzby, for being here today to discuss this important topic and 
thank you, Admiral Buzby, for going through some of the details 
with me yesterday.
    I wanted to highlight first that the merchant marine has 
since the founding of America been an integral part of our 
national defense as evidenced by the fact that during the 
Second World War they suffered the highest casualty rate of any 
branch of the military, losing 1 in 26 mariners and 733 ships. 
So I want to thank all of merchant mariners for their continued 
service to our Nation.
    My focus today, in addition to the material condition we 
have talked about, I want to focus on several assumptions that 
we are making in determining whether our sealift assets are 
ready when we need them.
    There was a maritime workforce working group in September 
of 2017 and several assumptions were made during that working 
group about the availability of mariners, and the shortage of 
mariners was identified to be about 1,800. But we made several 
assumptions in that process of which we said that a certain 
number of mariners would show up if requested and that 23 
percent of the pool of currently licensed mariners who are not 
sailing would be willing to come back to sea.
    And also a large portion of the mariners that we counted in 
the available pool are currently sailing with Military Sealift 
Command as contract mariners, approximately 2,044 of the 
mariners, and they may not be available as the Military Sealift 
Command ships are continuing to do their mission.
    And so I just wanted to confirm starting with General Lyons 
that those are correct assumptions that TRANSCOM is using in 
order to determine the availability of mariners currently for 
this mission.
    General Lyons. Ma'am, what I would say is this is where we 
work very, very closely with the Maritime Administration, 
because we rely on Admiral Buzby and his team to actually work 
the analysis on available mariners both underway and on the 
beach so to speak.
    What I have asked our team to do is snap the chalk line in 
a particular day and let us run a TTX [tabletop exercise] and 
see how many ships we can generate, how many mariners we can 
generate, and just kind of run this through the drill if you 
would so we kind of get a better assessment.
    Mrs. Luria. Okay. I appreciate that. And I will actually 
get back to something similar later in my questioning. And 
wanted to ask you if it concerns you if these assumptions are 
not correct, the impact that it has on sealift readiness, but 
with that exercise, I assume that that will provide more 
clarification to be able to answer that question later.
    So I wanted to shift over to Admiral Buzby. Other than the 
contractual requirement that the companies have to man the 
ships and get them underway, is there a specific requirement 
for the mariners in the commercially owned coast-wide 
oceangoing fleet to actually man these ships?
    Admiral Buzby. Manning of merchant vessels is voluntary.
    Mrs. Luria. Okay. And is there an incentive for people to 
volunteer to man the RRF or sealift fleet?
    Admiral Buzby. I think strictly the patriotism, they want 
to put their shoulder against the grindstone and help the 
effort at this point.
    Mrs. Luria. So doing some math, it looks like using the 
numbers that you used in your assumptions, for approximately 
every 26 assumed available mariners who don't show up for 
various reasons, not at all to question their patriotism, but 
some are otherwise employed by MSC and other things, that is 1 
ship approximately that couldn't get underway to meet our 
sealift requirements.
    And so I just wanted to confirm again, I know we have 
already talked about the 60 percent availability based off 
material condition, but can you say with full confidence that 
you will have enough mariners to get the sealift ships underway 
if they were called to respond today?
    Admiral Buzby. With full confidence, hundred percent 
confidence, I can't give you a hundred percent. And what I can 
tell you is that when we did that report, ma'am, labor was very 
heavily involved with that.
    So they provided their insights, they provided their views 
on the numbers and how many people they felt would respond. So 
they have given us fairly good confidence that the numbers we 
have come up with, we are pretty confident we can get all the 
ships initially manned.
    Mrs. Luria. I understand. In interest of time, I am going 
to continue to the last part of questioning but I do understand 
that you are taking a closer look to make sure of the 
confidence of that data.
    Admiral Buzby. And we----
    Mrs. Luria. So shifting back to General Lyons, your staff 
and your component commands, when they conduct sealift 
contingency sourcing solutions for our different OPLANS 
[operation plans] and CONPLANS [concept of operations plans], 
they base that on a specific C-Day [Commencement Day], is that 
correct?
    General Lyons. Yes, ma'am. That is correct.
    Mrs. Luria. Okay. So when you do contingency sourcing and 
you take into account the MSP and VISA [Voluntary Intermodal 
Sealift Agreement] ships on that C-Day, do you use an 
assumption of a timeframe? Is it 10 days that you use to 
determine when they would actually be available?
    General Lyons. We do have a set of assumptions, wouldn't 
necessarily discuss it in the open forum but I would happy to 
come back to you and take that for record, ma'am.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mrs. Luria. Okay. And I just wanted to get it sort of--you 
know, we make this assumption and there is the personnel 
assumption and then, again, the ``where in the world are these 
ships when we need them'' assumption and the time distance to 
get them available to respond when we need them.
    General Lyons. What I would say, ma'am, I think you 
scratched on the right issue; it is the mariners first, because 
I need the mariners first to rotate the gray hulls out and then 
I will get to the commercial ships.
    Mr. Courtney. Okay. Apologies.
    Mrs. Luria. Okay. I understand I have run out of time.
    Mr. Courtney. Yes. Well we may actually have a chance for a 
second round, but thank you. Mr. Cook from California by way of 
Connecticut.
    Mr. Cook. Thank you, Mr. Chairman. You know, this is like 
part two, I hate to say it deja vu all over of a committee 
hearing we had last year and a lot of us--it was probably one 
of the more contentious hearings we had and it was about the 
KC-46 and a lot of the problems.
    And I have to apologize for my colleague to the left of me, 
he was out of control and some of his questions there were--
anyway, I think this really scares me and by the way, comments, 
Omar Bradley, I don't know if there is anyone in the room here 
that has met Omar Bradley except me.
    And that is a reflection of my age. I was a second 
lieutenant, it was May 1967, he didn't smile once, he was 
yelling, I was yelling, and the subject was Operation Union on 
15 May 1967. I remember everything about that. I can't remember 
where I put my cell phone, my glasses, this and that, but I 
remember those things.
    But he was absolutely brilliant because we had some issues 
with the M16 and whether my conversation with him I think it 
kind of changed the whole progress of a weapon that when it was 
initially fielded it had all kinds of problems.
    Anyway, this, a number of years ago and some of my 
colleagues in the past on the dais might have remembered that 
we always had issues getting the military budget passed, we had 
the sequester which I think did a lot of damage to a lot of 
people in this room here, and I can see the groans already.
    But we finally got a number of people, and I won't mention 
who it was, to talk about readiness. And when they started 
actually saying that units were C3 and C4, not combat ready, it 
had an impact on me. As a former military, it had a lot of 
impact. Hey, you are sending troops off to combat, sailors, 
what have you, and they are not combat ready.
    And I am looking at this [the placemat] and I am saying, if 
you marry this up with the OPLANS and the dependence upon for 
whatever reason, you might as well rip up the OPLANS or just 
put C4. It is not going to happen.
    And I think we have got to be very, very candid in that, 
and the reason I am mentioning this, I think we would have a 
sense of urgency from Congress in terms of correcting this, 
because I don't think we can carry out those various OPLANS 
that these ships here are supposed to take care of. They are 
not going to show up.
    You know, we got enough problems and we kind of beat up the 
Air Force and refuelers and that is another part. But this is 
really, really scary. And until I think we start applying 
readiness indicators and all these variables which I don't 
think we are being honest with ourselves.
    And from somebody who, and these have heard it, I am just a 
dumb Marine who was a grunt, but I was also a logistician and I 
was also a Marine plans officer. And when you have so many of 
these plans, you got to be realistic because your job, Admiral, 
I don't know how you do it and General Lyons, I don't think we 
as Congress have done a good enough job of taking care of some 
of these deficiencies that you have had the courage to 
highlight.
    And so what I would suggest is that whether we can apply 
readiness indicators to this situation, whether it is combined 
with lift in this case, the ROROs [roll-on/roll-off ships] and 
the ships and everything else with the OPLAN. Right now I have 
the feeling that every one of them is C4. Not combat ready to 
be able to sustain that OPLAN. Any comments on that? Sorry, I 
did all the talking.
    General Lyons. Congressman, thanks, I appreciate your 
insights. It does create a challenge. We rely on a certain 
level of capacity to meet the OPLANs that you referenced and 
this is not where we need to be.
    I would say a couple of things, though. I give a lot of 
credit for the United States Navy right now because they are 
diving into this in a big way. I think it is going to be a 
challenge though. I think to Admiral Buzby's point like the 
three-phased plan, right? The service life extensions are not 
returning the investment that we thought.
    So it is a very old ship, it is a very old platform, this 
didn't happen overnight, it has been building for many, many 
years, and then you flip to the new build and you look at the 
investments that the Navy has in the out-years, it is very, 
very hard to compete a sealift new build that is 26 times as 
expensive as an acquired used solution.
    And I would just encourage the committee to--because from 
my perspective, one of the things that is really going to be an 
obstacle for us is the hook for those five vessels in last 
year's bill is for the Navy to produce money in their program 
for a new build. I think it is going to be very, very difficult 
for them given the other combatant growth that they have got to 
contend with.
    Mr. Courtney. Thank you, Congressman. Mr. Golden.
    Mr. Golden. Thank you very much. I just want to take a 
moment, sir, and say I am also just a dumb Marine grunt and 
never wanted to be anything but. Uh-huh. That is right. Well, 
yes, it is an honor to be here serving with you, sir, so thank 
you. Thank you for your Semper Fi.
    Admiral Buzby, I wanted to talk a little bit about the 
mariners programs and the workforce. Being from Maine we have 
Maine Maritime Academy up there and I think Congresswoman Luria 
and others have already broached the subject, but I thought we 
could just dig further, beyond whether or not you think you 
have the capacity you need right now in terms of mariners to 
get this job done, what are your concerns beyond that down the 
road looking into the future? What does the shortage look like? 
And I know that you work with the maritime academies, I assume 
that you would like to see more people going in and Congressman 
Norcross said it looks like that is moving up, but I am sure it 
is not enough.
    But are you working beyond the academies with let us say 
other institutions that are out there, in high schools or just 
a level above in fishing communities because I can tell you 
there is a lot of people out there grown up in fishing 
communities where the fishing opportunities are not as great as 
what they used to be. And so I am just curious, what are you 
doing or what can we do to help you?
    Admiral Buzby. You know, thank you for your question. 
Obviously our academies are our key source of injecting 
officer, licensed labor into our U.S. merchant marine. But to 
your point, we are working at additional levels, different 
avenues, vectors to get people into the merchant marine.
    Last year Congress passed legislation that establishes 
domestic centers of maritime excellence. It is going to allow 
community colleges and technical colleges to be designated as 
maritime centers of excellence. Their programs, so we can use 
those as accession sources to bring people not only into the 
deep-sea merchant marine but also into the Jones Act domestic 
merchant marine as well.
    And we are working through the process of how we would 
qualify those institutions; we expect to have that out probably 
a little bit later this year on how to enroll those. To your 
point though, we are also working at the high school level. We 
are reaching out. I visited the New York Harbor School up in 
New York, the school in Baltimore, school in Philadelphia, 
school in Cleveland. There are lots of young folks that are 
interested in pursuing maritime careers, we are going to do our 
best to try and nurture them and bring them onboard.
    Mr. Golden. Thank you. I am glad to hear that, sir. You 
know, I am working with Congressman Don Young on a bill that 
has to do with establishing programs in high schools for young 
fishermen----
    Admiral Buzby. That is great.
    Mr. Golden [continuing]. And making sure that the interest 
stays peaked, because when they don't see the opportunities I 
think they start looking elsewhere for a career. So I would 
encourage you to keep looking into that. It's the Skippers 
Program up in Maine is the one----
    Admiral Buzby. Right.
    Mr. Golden [continuing]. And it's geared towards helping 
lobstermen and others. But I mean they are doing great things 
like building simulators so that the young 16-year-old men and 
women can learn how to steer ships. You know, these are lobster 
boats but maybe you can do something similar with merchant 
marine vessels as well.
    Admiral Buzby. Yes, sir. Thank you.
    Mr. Courtney. Thank you, Mr. Golden. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here today. I really appreciate, Ms. Luria, you 
bringing up the number of merchant marines we lost in World War 
II because Admiral Buzby, you remember last year we talked 
about my Uncle Jack was one of them.
    Admiral Buzby. Yes, sir.
    Mr. Byrne. And all hands on his ship went down when a 
German U-boat sank it. I do worry about the level of attrition 
that we could face if we got into a major conflict; you and I 
talked about that last year.
    I do want to kind of get an update from you because we had 
a really good discussion about that. You know, earlier this 
week the President I think took a good move when he issued this 
new Executive order which makes it easier for our Active Duty 
sailors to more easily transition their maritime certifications 
to service in the merchant marines after they leave Active Duty 
and that is a good move on his part.
    And we talked a lot last year about some of the things you 
were doing, you've talked about them today. But other than 
supporting the Maritime Security Program, the Jones Act, what 
specifically can Congress do to help you beef up the number of 
merchant marines we have got out there?
    Admiral Buzby. Thank you for that, sir. And I think the 
area where we can generate the fastest and the most increase in 
merchant mariners is to give them more places to work. That 
means more ships under U.S. flag.
    That is how we are going to get more merchant mariners 
quite frankly. A number will join but they have to have 
someplace to work. If there is no place, if there is not enough 
seagoing billets for them to participate, they are not going to 
come in. And we can have every program we want in the world, 
all good, and we will likely see some growth in the Jones Act 
fleet because we are increasing our maritime highways and that 
sort of thing.
    But the unlimited licensed people that we need to man these 
sealift vessels, they have to have those unlimited seagoing 
jobs to work and advance in. You know, we bring in over a 
thousand people every year through the academies, the six State 
plus Kings Point, that come in to fill out the ranks of the 
merchant marine. They are not staying by and large beyond--they 
are not making a full career because there is not a full career 
in many cases for them to have, because of the 82 oceangoing 
ships that we have now plus the 99 Jones Act ships doesn't 
leave enough room for all of those people to continue to move 
forward.
    And the rather onerous requirements that now are in place 
for licensing take up a lot of money and a lot of time. And as 
young men and women get to the 7- to 10-year point in their 
careers where they are getting ready to make that jump to the 
higher license levels, the more senior people that are going to 
be the chief engineers and captains, they are not seeing the 
upward mobility.
    There is only so many places for them to go and if they 
don't see the growth, they are going to do other things. So 
getting more ships under U.S. flag is really kind of the key 
here.
    Mr. Byrne. Yes. Well you talked about the Jones Act last 
year, that sometimes is a point of controversy here in 
Congress. And sometimes I have to point out to my colleagues 
that what we are really talking about here is a matter of 
national security.
    Admiral Buzby. Absolutely.
    Mr. Byrne. If we don't have our own people to man our own 
vessels, we are relying upon people from other countries and 
vessels from other countries to take our troops, our equipment, 
our material, our supplies, to place us where we are in 
potentially major contest.
    So I appreciate your giving us more of that and I hope you 
will continue to provide that to us because we are going to 
need that to continue to communicate to our colleagues the need 
that we have with regard to that. So thank you for that and 
continue to provide that information.
    Admiral Buzby. Thank you, sir.
    Mr. Byrne. General Lyons, what Representative Cook was 
talking about was we had a hearing last year with the Seapower 
and Force Projection Subcommittee with the Air Force about the 
tanker.
    And this was before the tanker had been accepted and we 
registered with the Air Force all of us, bipartisan, a lot of 
concerns about where we were. We were assured by the Air Force 
that they would not accept that aircraft if it had unremediated 
substantial deficiencies. And what I am told is is that we did, 
that they made some changes, but they did not adequately 
remediate.
    And so we have got an aircraft that is 2 years past its 
delivery date, it is not meeting its specifications in the 
contract, and now we have this new problem that things have 
been left in the aircraft on the part of the manufacturer. I 
know you are relying upon the Air Force, I understand that, you 
don't have a choice about that, you have to. But I am just 
making sure you hear from us what we told the Air Force last 
summer.
    Now, we desperately need these tankers, I got that, and we 
have got to get them in. You need them very much and it bothers 
me that we have got airmen that are up there with these old 
aircraft. But I just want to make sure you heard from us the 
concerns that we had expressed to the Air Force last year and 
hope that would be reflected back. And I yield back.
    Mr. Courtney. Thank you, Mr. Byrne. Mr. Kelly.
    Mr. Kelly. Thank you Mr. Chairman. I was interested in 
Monday's op-ed in The Wall Street Journal by Mark Halperin, 
``America's Inadequate Military Sea and Air Lift.''
    It is a requirement that we be able to provide the 
logistics to get our forces to where they are. As a young 
platoon leader, company commander, battalion commander, brigade 
commander, we used to always have these great operational plans 
and they all started at the LD, the line of departure.
    But you know what, you got to get to the LD before you can 
fight. So what I found over a long military career is if we 
didn't practice uncoiling from a tactical assembly area, if we 
didn't practice doing a tactical road march to the LD, what 
happened is, is we didn't have the right forces there when we 
hit LD. And guess what, the enemy has a vote and he is not 
going to wait on you to get your forces in line.
    We have that same scenario planned out right now on a 
strategic level and that is with sea and airlift to get the 
right people in the right place in LD to fight the fight at the 
right time. So it is critical that we get this right.
    And this is for Admiral Buzby, how many foreign-flagged 
vessels were contracted to transport fuel over the last 12 
months and I will take percentages if you have that?
    Admiral Buzby. I will have to get back to you on that, I 
don't have that number right at my fingertips, sir.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Kelly. Estimates that I've received are in the 
neighborhood of two-thirds of the fuel transport contracts are 
going to foreign-flagged ships. That is concerning.
    Admiral Buzby. Yes, sir.
    Mr. Kelly. If we have to fight today, we can't do that if 
we are relying on someone else to deliver us fuel and to a 
high-intensity environment; it has got to be U.S.-flagged 
ships. It's the law that U.S.-flag ships get priority for 
transport, is that correct?
    Admiral Buzby. That is correct. Yes, sir.
    Mr. Kelly. Then why are foreign-flag ships getting the 
majority of fuel transport contracts?
    Admiral Buzby. I can answer that anecdotally. Military 
Sealift Command typically contracts with DLA [Defense Logistics 
Agency] to move that cargo. The fact is, there are only six 
U.S.-flagged tankers trading internationally right now.
    If they happen to be in the right position and in position 
to carry that cargo, then they will get it. Typically they 
however are not in position.
    Mr. Kelly. Okay. Is there a system online that provides 
U.S. shipping industry with a future projection of what 
contracts will be open for bid 30, 60, 90 days out in the 
future so they can actually project and plan to have the right 
ships available at the right time?
    Admiral Buzby. I am not aware of one that goes out that 
far, sir.
    Mr. Kelly. Would that be a pretty good idea?
    Admiral Buzby. That would certainly help U.S.-flag carriers 
to plan, Yes, sir.
    Mr. Kelly. You know, and I can tell you from dealing with 
Strategic Air Command and C-17s and KC-135 and KC-46s, there is 
a lot of fleet management that goes on and you guys do fleet 
management.
    And so when you give those contracts to someone [inaudible] 
and cut out Guard and Reserve or you cut out our maritimers, 
they can't maintain their ships because consistency of 
contracts and knowing that there is going to be contracts 
allows--and I can guarantee you, if they know what they are 
planning for, that this chart changes because if they know they 
are going to have the shipments, they are going to have a crew 
and they are going to have the ship ready to do.
    But if they don't know and they don't have any consistency 
then there is no need to get a ship ready that may or may not 
sail. So I will tell you, I think the fleet management is 
critical and we have to make sure that we are using the right 
sources whether that be our peacetime maritimers, our U.S.-flag 
ships, or whether we are talking about our Guard and Reserve C-
17s and KC-135s and KC-46s, because if we don't do that we 
lose.
    And I don't think there is really a response I need on that 
but next, General Lyons, we have all heard about TRANSCOM's 
plan to privatize DOD transportation of household goods. And we 
have all seen recently what blind outsourcing has done to the 
military housing industry.
    And so what studies or what reports or what things do you 
have in place to ensure that we take care of it, because first 
and foremost we owe our soldiers, sailors, airmen, and Marines 
the ability to move their goods without waiting on that. What 
have you got in place to make sure that we don't take advantage 
of those guys?
    General Lyons. Well, Congressman, to be clear, there is no 
plan to privatize. Everything we do, every task in the 
household goods industry is done by industry. It's just that 
the relationship with industry is about 950 transportation 
service providers to one. And each sort of----
    Mr. Kelly. Just real quick, I only have 10 seconds and you 
don't have time to answer this. But I am curious about how the 
same companies that you already use and adding another layer of 
process is going to improve it.
    So if you can answer that one for the record and I know you 
can't because my time is expired, but thank you General Lyons.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Courtney. Thank you, Mr. Kelly. Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman. And thanks to both of 
you for being here. You know, if you can't get to the fight, 
you can't fight as you have heard several people say.
    And Admiral Buzby, you made the comment that pace of repair 
is outpacing the pace of SLEP [service life extension program]. 
Would you just elaborate on that just a little bit more so I 
understand exactly what you meant, please?
    Admiral Buzby. Sure. Thank you, sir. So we provide 
estimates to the Navy on what repairs we need to do on our 
ships on an annual basis, dry-dockings that are required by the 
Coast Guard, other scheduled maintenance that must occur.
    In the midst of that, we also factor in planned upgrades to 
do those service life extensions, things that we want to do. So 
we get a budget, a chunk of money to kind of do that. As we go 
through and inspect our ships or our Coast Guard inspectors 
come aboard, we are discovering that there is a lot deeper 
level of repair that is required.
    And when we put those ships into dry dock, we are finding, 
dig into tanks, and dig into areas you don't typically get to, 
but we are all----
    Mr. Bergman. Okay. You got to the level that I needed to 
make sure I understood. So when we think about what Congress is 
going to do, like it always does, it listens and it tries to 
provide the appropriate amounts of money that can be 
effectively utilized to get the readiness capabilities that we 
know we need.
    Is there--DOD among others, they don't happen to have the 
corner on this market, but because of my experience in DOD, I 
have seen enough of that where we spend--continue to spend 
valuable limited resources on legacy systems or in this case 
old ships and we had a dollar and then there is another dollar 
and we don't have a plan to find enough to do that transition 
to next gen [generation] or new ships.
    It is kind of like I drive a fleet of old cars and I 
promised my wife I wouldn't put any more money into one of my 
oldest favorite trucks, but you know, I love it. But the point 
is, there will be a time where it moves on. Can you through 
TRANSCOM, through whatever program, can you provide us a 
transition better from when it is time to stop putting money 
into a ship, as soon as you find something and just say, no, we 
are going to stop this and then move forward with a new ship or 
some other solution rather than throwing good money after bad? 
Is that an ask too big over a period of time here?
    Admiral Buzby. We work with the Navy all the time, sir, on 
trying to find out where that knee of the curve is. And a lot 
of the things have to factor in the----
    Mr. Bergman. And have we made any progress? I mean, have we 
gotten any better at it over the last 5 or 10 years?
    Admiral Buzby. I would like to think so.
    Mr. Bergman. Okay. Well, when you think about the CRAF, the 
Civil Reserve Air Fleet, it is fairly well-defined. We know 
what assets are out there. We need in a rush to grab that. That 
is by contract.
    And I would suggest to you somehow whether it is building 
other ships, whether it is having contracts that we have 
already talked about here with other carriers, that some 
derivative event will help us plan for you to provide us the 
assets that the military needs to prosecute the fight.
    And also what I heard was--said was if we have more ships 
under U.S. flags, we will have more jobs. We will have more 
jobs, we will have more career level jobs for the six maritime 
academies as they exist now, plus Kings Point----
    Admiral Buzby. So----
    Mr. Bergman [continuing]. To bring the young men and women 
into a vital field that is spectacular. In fact, in Traverse 
City, Michigan, the maritime academy there, I just went a 
couple of weeks ago. And they are motivated. These young men 
and women are so excited. So with that, thank you for what you 
do.
    And Mr. Chairman, I yield the rest of my time.
    Mr. Courtney. Thank you, Mr. Bergman. Mr. Gallagher.
    Mr. Gallagher. Just one quick question. We clearly have a 
sealift problem, both a people problem and a hull problem. How 
do you assess the potential for autonomous ships like Sea 
Hunter to help us solve that problem?
    Admiral Buzby. I would say the place that that will be able 
to help us soonest in what at least what I am thinking about is 
in terms of assisting our sealift ships to get to their 
destinations in a contested environment.
    We probably are not going to have enough naval vessels to 
provide escorts for all the sealift ships; try as they might, 
they are going to be busy doing a lot of things, the amount of 
ships that we were going to have to be transiting through. So 
having autonomous vessels that can help with the defense or 
escort of some of our ships, I think has real near-term 
applicability.
    In terms of how soon we are going to see the big ships 
themselves autonomously going across the ocean, I don't think 
that is going to happen in the real near term. I think if 
anything it will be phased over time. There are a lot of 
obstacles yet to be dealt with before we get there, the least 
of which is just the security of--the cybersecurity of 
operating such a vessel. The position finding, how we are going 
to conduct that vessel across the ocean in a way that its 
position finding won't be interrupted or corrupted and taking 
that ship off course.
    There are all sorts of concerns that go along with an 
autonomous sort of vessel not to mention just the labor 
aspects.
    Mr. Gallagher. I appreciate it. That is all I have, Mr. 
Chairman. So for a HASC [House Armed Services Committee] first, 
I am yielding back more time that I have consumed.
    Mr. Courtney. It is duly noted. Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. I have three 
questions for you. One dealing with the ships and the other 
with KC-135 and one about logistics. I hope we can talk fast 
here.
    But starting with you General--or Admiral Buzby. In trying 
to sort through my notes here and if you could clarify where we 
are at in getting so that we can replace all of these ships 
that have issues.
    So from fiscal year 2018, looks like we have authorized and 
funded one new ship, the National Security Multi-Mission 
Vessel, and then we also that year allowed procurement of two 
foreign-built ships.
    And then fiscal 2019, looks like a second ship was 
authorized and funded, a National Security Multi-Mission 
Vessel. And then we also gave the Navy five additional used 
ships authority and then two new ships for the Ready Reserve 
that are going to be delivered in 2026.
    So I am just trying--do we have a plan to keep moving 
forward? How many ships do we need a year? What is the 
combination of new versus used versus I know that the Secretary 
of the Navy had a three-phased program of service life 
extension. General Lyons, you mentioned that a little bit and 
how they are having difficulty with that.
    It goes back to the question of General Bergman. When do we 
scrap that idea and say this isn't worth the money, we need to 
be investing in more used. It sounds like General Lyons from 
your comments earlier, you think we get more bang for the buck 
from getting the foreign-built ships versus building them here.
    So what mix, do we have a grand plan where you are asking 
for so many foreign-built, so many used, so many brand new, and 
at what point will we be able to say we have replaced all these 
X's?
    General Lyons. Ma'am, we do. We do have a plan. The Navy 
has a plan and they've presented that, a combination as you 
mentioned: service life extension, used acquired. And the 
authorization bill gave five additional, but that is also 
hooked to a new build.
    And that is really fundamentally, I think, the sticking 
point is the affordability of a new build. The plan is based on 
the waterfall chart that ages these out in about 2024 to 2026 
timeframe. The placemat in front of you just depicts a 
readiness problem today, immediately.
    And so, what I would like to see is I would like to 
accelerate the acquired used strategy and that could be at the 
expense of new build. I think the Navy has got some other bills 
they have got to pay.
    Mrs. Hartzler. So do you say 2024, 2026, when you think 
will be all replaced, all of them?
    General Lyons. Ma'am, I am not optimistic on that. I am 
just describing. That is when you get the big age-out. We have 
got to put some actual dollars into this and start delivering, 
I believe.
    Mrs. Hartzler. But the Navy plan, what does it have that--
when where we will have these all replaced? What year?
    General Lyons. Well, in the program, the money that is 
there today is for the first two acquired used in 2021 and 
2022. And then we have got to really work through the issues 
because we have got some fundamental issues financially to 
figure out how they are going to pay the bill----
    Admiral Buzby. Ma'am, if I could just jump in. The Navy is 
doing a business case analysis right now on the right mix and 
timing, but I think at the most optimistic estimate, this is 
like a 25- to 30-year program to get this entire fleet turned 
over under kind of current funding levels and current path.
    Mrs. Hartzler. So I looked forward to maybe the plan is 
already there but it seemed--maybe some options that you would 
have for us in Congress where you show us option A, we have 
this combination of new versus used whatever option it will be. 
And then it will be up to us to decide how we spend the money 
and what we decide that combination should be. But I agree with 
you, we need to accelerate this as soon as possible.
    So moving on to the KC-135s, and with our peer--contested 
environment reality that we may have with the great power 
competition, what type of modernization do you see that we need 
with the KC-135 force structure?
    General Lyons. Ma'am, I think you realize the average age 
of that plane is about 57 years old and it is going to be in 
the fleet probably for another 20 years. And so the Air Force 
is investing more money to improve the readiness of the fleet. 
And then with the delay of the KC-46, they are also working 
perhaps to delay some of the currently planned retirements at 
least to retain some level of capability for the combatant 
command. And the rest of the details I will really defer to the 
service on that.
    Mrs. Hartzler. Okay. Since I only have 23 seconds, I just 
would like to ask for the record just a concern with this 
logistics move going to one agency as well. It sounds like you 
are going to let that, draft the proposal next week for that.
    But if you could let me know how would a new sole source 
contractor specifically improve on areas where data shows 
needed improvement? And secondly, how will a sole source 
contracting model create more capacity--trucks, warehouses, 
labor--when a contractor would have to rely on the same 
underlying network.
    So thank you very much. I yield back.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Courtney. Thank you, Ms. Hartzler.
    So it's now back to myself, and Mr. Wittman just--and then 
we will have the first pass through completed. And I will just 
have a couple of questions here and then yield to Rob.
    Admiral Buzby, as you note in your testimony, the Maritime 
Security Program is critical to maintaining a surge sealift 
capacity with U.S.-flag, U.S.-crewed vessels. We have heard 
from participating carriers that long-term advance 
reauthorization of this program is important because they have 
to make investment decisions which stretch out further than 
2025.
    Admiral Buzby. Right.
    Mr. Courtney. And I guess there is also a reimbursement 
issue in 2022 that I think is also creating concerns. So, I 
guess, for the record, can you state whether you would support 
a long-term reauthorization of the Maritime Security Program as 
sort of a to-do item for the subcommittee this year?
    Admiral Buzby. I think it would be to the program's benefit 
and to all of our benefit to get that under our belt, to get 
that reauthorization completed and moved on. We have to make 
sure that with my compatriot here from TRANSCOM that the tenets 
of the program remain firm and that we're delivering the 
capability that he needs.
    So I think with that caveat, I think it is important that 
we could go ahead and move forward with that.
    Mr. Courtney. General Lyons, do you have any comment?
    General Lyons. Chairman, I agree. I agree with Admiral 
Buzby on it.
    Mr. Courtney. Again, Admiral Buzby, in your testimony, you 
sort of alluded to the fact that you are going to be pursuing a 
``construction manager'' approach for the National Security 
Multi-Mission Vessel Program.
    Can you kind of put on the record and explain to us how 
this approach is different than the way the government usually 
procures ships and what advantages it has?
    Admiral Buzby. Sure, Mr. Chairman, happy to. So this was 
directed by Congress that we procure these National Security 
Multi-Mission Vessels using this method. And we are using as 
you point out a vessel construction manager. A vessel 
construction manager, and we are actually evaluating prior to 
an award right now, is going to be a U.S.-flag Jones Act U.S. 
carrier, a company, who has recently built a ship in the United 
States, which there are several companies that have done that, 
recapitalized their Jones Act ships.
    So we are going to call upon their expertise in procuring 
commercial vessels, which the NSMV essentially is, to go out 
and contract with a U.S. shipyard to procure this vessel using 
commercial means.
    And we believe that we will be able to see substantial 
savings in both time and schedule to get this ship delivered, 
best value to the government.
    Mr. Courtney. Great. So, again, is this an approach that 
you would recommend Congress to explore for other auxiliary 
vessel programs?
    Admiral Buzby. I think it has great promise. I think there 
is a lot to be learned. You should watch us as we execute this 
over the next year or two to see if it pans out the way we 
think it will. But I think assuming that we do our jobs 
correctly that it has great promise to be applied to other 
shipbuilding programs as well.
    Mr. Courtney. Well, and it seems like the message here 
today is time is the enemy. So we have got to sort of find 
every efficiency and way to accelerate that we possibly can.
    Admiral Buzby. Sure.
    Mr. Courtney. So thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here with us today.
    General Lyons and Admiral Buzby, I wanted to drill down a 
little bit more on this three-tiered strategy that the Navy 
has. One is to do service life extensions on existing ships. 
And see from the placemat here that there are challenges with 
that, especially the age of the ships and the extent to which 
they need to be maintained or modernized or service life 
extended.
    And the other part of that is to buy used ships and the 
other part is to build new ships. The bookends of that strategy 
is, one, that there is a lot of resources that have to be 
expended to put into bringing up to maintenance standard and 
certification these old ships and that is what they are, old 
ships.
    The other bookend is there is not capacity in the industry 
today to build those sealift ships as we speak. So where we 
find ourselves is the number of ships that we build or excuse 
me, that we buy used. Give me the perspective on the cost 
associated with bringing up to certification the ships here on 
this chart that you provided to us versus expending dollars to 
buy used ships.
    Give us the economics of cost associated with the 
maintenance and upgrades of existing ships versus buying used 
ships.
    Admiral Buzby. I will go ahead and give the first shot on 
that, sir. Old ships that get older, no matter how much you fix 
them, they are going to continue to age, other parts of them 
that you have not touched yet are going to have issues.
    And the costs to do that maintenance just rises 
exponentially. There's just no getting away--around it, steel 
just continues to rot away. So, again, some of these that have 
very special capabilities that we need to keep around as long 
as we can, as long as they are in reasonable shape and continue 
to put money into them, we will.
    We are going to obviously be working very closely with the 
Navy. And there will be a point, there will be a knee in the 
curve where it just makes no more sense to dump any more money 
into them no matter how special those ships may be.
    Now, the replacement vessels that we are looking at 
bringing into this fleet are a decade or two younger than the 
ships they are going to be replacing. And presumably if they 
are in good enough shape coming in, their maintenance costs are 
going to be much less and the reliability will be much higher 
and their equipment will be much more modern.
    So, again, the business case that is underway right now by 
the Navy is looking at kind of where those knees in the curves 
are. We are giving them a lot of data to work with actual 
conditions, so we can make smart decisions here.
    But we need to get on with it. These ships are not getting 
any younger as we have all noted. And they are just getting 
more expensive.
    Mr. Wittman. Yes. Very good.
    General Lyons, any perspective on that?
    General Lyons. Sure. The only thing I would say and the 
Navy to Admiral's point is working this very--right now and 
what I would say is the service life extension, and I don't 
want to get ahead of the Navy on this, but a couple of examples 
I have looked at is probably about three times as expensive as 
it was budgeted, probably twice the period of time.
    And they are not coming out of the shipyard with 
certificates of inspection. So in the near-term strategy, it is 
not delivering readiness. Used ships vary $25 million maybe to 
$60 million, depends on the age. And a new ship is 26 times 
that.
    Mr. Wittman. It seems like to me that it makes sense and I 
know the Navy is doing their analysis, but it makes sense to 
not put lots of money into old ships that right around the 
corner are going to have more and more severe problems in order 
to keep them at sea.
    So it does seem like we need to really accelerate the 
purchase of these used ships. I appreciate your perspective.
    General Lyons, I did want to get a quick perspective on you 
looking at the OSD CAPE study versus the number of tankers that 
they say we need, which is a static number and the assessment 
by the Air Force of their ``the Air Force we need'' perspective 
that says we need a lot higher number of tankers going in the 
future.
    I want to get your perspective on where you believe the 
right place is as far as the number of tankers in the future to 
perform this refueling mission.
    General Lyons. Sir, as you know the 2018 authorization 
directed the Department in concert with TRANSCOM to conduct a 
study on the sufficiency of mobility enterprise against our war 
plans. We did conduct that.
    We assessed the level of sufficiency. We did assess 
increased risk, significant risk in the area of refuel 
portfolio. And we also acknowledged that the work we did was 
largely inside the program, so it was with the current existing 
planning set.
    But as we worked that, we also understand that the Joint 
Staff is working updates on integrated--global integrated 
planning construct and the Department is working updates on 
defense planning scenarios. So we will have to evolve the study 
as those plans and demand signals evolve.
    Mr. Wittman. Let me ask this, the relativeness of terms 
here I think is important. When you talk about significant 
risk, that's nomenclature that if you talk to folks outside 
they go, well, what's significant risk? I want from your 
perspective and the official designation of that term, is 
significant risk acceptable risk?
    General Lyons. No, sir. The Department typically invests to 
moderate risk. Significant risk could be above that level.
    Mr. Wittman. So you would say that in those situations the 
place where we find ourselves with tanking capability is beyond 
the point of where we should be comfortable with that or where 
we should say that is acceptable risk.
    General Lyons. Yes. That is correct, sir.
    Mr. Wittman. Okay. Thank you.
    Mr. Chairman, thank you so much. I yield back.
    Mr. Courtney. Thank you. Mr. Garamendi, a second round.
    Mr. Garamendi. Thank you. Very, very quickly the placemat 
is very, very helpful. There is a second line here and that is 
there may be a specialty ship that isn't on this mat or maybe 
is on this mat that is desperately needed and that may be a 
ship that has to be built because there is no other used ship 
out there. I would like you to take that analysis and get back 
to us on that.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Garamendi. Mr. Kelly brought up the issue of the 
movement of personal goods. And General Lyons, we discussed 
this yesterday and I would appreciate if for the record you 
would provide us with a detailed justification for the change 
that you are proposing. I understand it is soon to be underway.
    If you could very quickly, not the whole justification, I 
suspect that to be a significant document. But just the timing, 
where we are, and finally or also, an assurance that current 
contractors and new contractors might be able--would be able to 
participate.
    General Lyons. Sir, absolutely, I appreciate the question. 
This is a topic that I have received more letters from Congress 
than any other topic in my combatant command responsibilities. 
The fundamental issues at stake here really are sufficiency 
during the peak and accountability.
    This is not entirely an industry issue. The Department and 
the way we run this program is part of the issue, frankly, a 
large part of the issue. And that is really what is driving our 
effort to restructure.
    I have been meeting with CEOs [chief executive officers]. I 
have got a meeting next week to meet with industry reps and 
their chief executives. We are wide open on how to shape this 
relationship. But today, if you were to look at the way we 
manage this program in the Department, completely diffused, 
completely decentralized, every service is running their own 
thing.
    There is just no enterprise approach. A carrier can be 
suspended over here, working over here. And so we are not doing 
due diligence for military families. And at the end of the day, 
that is really what this is all about is to deliver better 
curbside service.
    And the idea about moving into a single move manager really 
is a longer term relationship than one transaction at a time so 
that we incentivize the level of investment in the industry and 
allow industry to run industry, because right now we are over-
engineering the process.
    And it is excluding carriers that want to participate but 
won't because we are too hard to work with.
    Mr. Garamendi. You have received letters, so have we, and 
they are coming into my office and our offices also, so the 
justification and the explanation would be very much 
appreciated.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Garamendi. Finally, there is very few of us left here 
but almost every member has expressed concern about the ability 
of American shipyards to produce ships. There is a program that 
is underway. It is called the Energizing the American 
Shipbuilding Industry.
    The leadership of this committee on, all of us were in on 
last year's bill. It will soon be reintroduced and that could 
lead to some 50 ships, LNG as well as tankers, being built in 
American shipyards with the jobs thereof.
    With that I yield back.
    Mr. Courtney. Thank you.
    Mr. Lamborn to be followed by Mr. Kim.
    Mr. Lamborn. Thank you.
    And General Lyons, we visited earlier. We didn't talk about 
prepositioning. But I would like to ask your philosophy on 
that. And if you have any goals of improvements or changes that 
you want to make going forward to make that an even better 
approach to our logistics.
    General Lyons. Okay. I am back. Sir, I apologize. 
Prepositioning is an important part of the strategy to be able 
to project power. The services largely run that program in 
terms of how they want to preposition capability whether it is 
ashore or afloat.
    And then a portion of the surge sealift fleet run by 
Military Sealift Command has allocated to that, for example, 15 
ROROs. And those ships once discharged would come back to 
TRANSCOM for follow-on movements.
    So it is a very important part of being able to produce the 
level of agility to be able to come at a problem set in 
multiple ways.
    Mr. Lamborn. Are there changes or improvements that could 
or should be made in our approach to prepositioning?
    General Lyons. Sir, each of the services have made 
improvements over the last couple of years. As a matter of fact 
this committee with the EDI [European Deterrence Initiative] 
for Europe has enabled a lot of that, particularly for the 
United States Army in Europe.
    But the other services like the Air Force have improved 
their positions and their posture in munitions and other areas 
like that. So they continually assess that.
    Mr. Lamborn. All right. That is all I need, Mr. Chairman. 
Thank you.
    Mr. Courtney. Thank you, Mr. Lamborn.
    Mr. Kim.
    Mr. Kim. I will keep this brief just for the sake of time, 
but I did want to raise it up. One of my colleagues, 
Congressman Norcross, raised a lot of this earlier. Certainly, 
my district in New Jersey, the Jersey Third Congressional, is 
deeply affected by McGuire-Dix-Lakehurst Air Force Base and 
joint base.
    I wanted to just follow up here, I mean, just really stress 
that the corrective action plan is certainly something that I 
am very interested in and want to make sure that we are 
following up on in a timely manner to be able to understand 
what is happening with the KC-46 and be able to move forward in 
that way.
    So I just wanted to take this time to be able to alert in 
that way and just get a sense from my own sense of what these 
next steps are and when we can expect that kind of timeline 
going forward.
    General Lyons. No. Yes, sir. Fair enough and I am very 
interested in that myself. The Air Force is working on this. I 
think they have got a good plan. They are working with Boeing 
on the corrective action plan if you are talking about the 
near-term issue and that will be a decision, really, by the Air 
Force acquisition executive whether to proceed with acceptance 
of the--continued acceptance, restart the acceptance of the KC-
46.
    Mr. Kim. Okay. Great. Well, look, this is a critical 
element of our joint base and what we are trying to get done. 
We are deeply concerned about anything that could affect the 
overall timeline of when they will be delivered to our joint 
base.
    So I just want to make sure that we are tied up in sync on 
this both in terms of the short-term as well as mid- to long-
term effects on that. Thank you.
    I yield back my time.
    Mr. Courtney. Thank you. And, Mr. Kim, it is very likely--
possible that the Seapower and Projection Forces may be doing a 
follow-up with the Air Force again, because obviously that is 
sort of where the center of gravity is right now.
    And we will certainly keep your office informed, so, yes. 
Thank you. With that I think we are--oh, sorry. Mr. Wittman.
    Mr. Wittman. Just very quick. I want to circle back around 
with General Lyons, looking again at airlift. The National 
Defense Strategy as you know emphasizes great power 
competition. It is our understanding when the President's 
budget comes out next week, it will also dovetail with 
resourcing the necessary capability for great power 
competition.
    One of those areas we talked about constantly is tanking. 
We see the KC-46A deliveries. We see some shortfalls with the 
capability of that aircraft under certain situations and with 
that we see the KC-135 is going to have to perform the tanking 
mission well into the foreseeable future.
    Give us your perspective on service life extensions on that 
aircraft, because we are going to continue to need it. It is an 
older aircraft that has been through a number of service life 
extensions, but give us your perspective on what we need to do 
to make sure we have the fleet necessary and, of course, the 
number is 479.
    We are not any near 479, which means we may need to keep 
some of these aircraft that had been planned to be retired like 
the KC-10, KC-135, for extended periods of time. If you are 
going to do that, that aircraft has to be capable. So give me 
your perspective on what we need to do with the KC-135 fleet.
    General Lyons. Sir, I just--for the Air Force, I was 
recently down at Tinker, the air logistics center where they 
refurbish the KC-135 and it is absolutely impressive what the 
Air Force is doing with that model of airplane that has been 
around for nearly 60 years.
    And they will continue to figure out how to fly that for 
probably 20 more years. Again, as I mentioned earlier, Air 
Force is looking at this across all their weapons systems and 
from my perspective it is about capability over time.
    And you alluded to sufficiency. We are short against the 
objective and we are kind of thinking that could actually grow 
as you mentioned. And so the two major initiatives are to bring 
on the KC-46 and then to maintain the life expectancy on the 
KC-135 as you mentioned. And that is where the Air Force is 
pushing right now.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you.
    So this hearing seems to be having its own service life 
extensions. We have been joined by another member, and a good 
member, Mr. Cisneros from California.
    Mr. Cisneros. Thank you, Mr. Chairman.
    General Lyons and Admiral Buzby, thank you for being here 
today. Sorry I am late, but I was at another committee hearing 
regarding veterans. So actually I like your chart that you have 
here. I actually spent time on three of those MSC roll-on/roll-
off ships--the Obregon, the Kocak, and the Pless. I was 
actually stationed at MPS One [Maritime Prepositioning Ship 
Squadron One] when it was still active.
    I will keep it brief because like you said, this is--we 
don't want to extend this anymore than it has to be but I am 
interested in the MARAD ships and really the activation time. 
They just sit there kind of collecting dust and I know there 
are some people on there, kind of maintenance there that does 
PMS [Planned Maintenance System], but how long is it actually--
does it take to get one of those ships active, up and running?
    Admiral Buzby. Sir, they are required 96 hours to be ready 
to be underway. And we exercise that annually, on a fairly 
regular basis, not the entire fleet, but General Lyons 
activates us, gives us no notice, starts the stopwatch, and it 
is a dead stop to go, to be ready to go.
    And it is graded. So we have pretty good confidence that 
these ships can do it, can do it reliably. I would just point 
out that I have four of my ships currently underway right now 
doing missions.
    And they have had no casualties whatsoever. They started on 
time. They went out, and they have done their missions 
flawlessly. So 4 days to be underway, and they have to be ready 
to report on the fifth day.
    Mr. Cisneros. Now, with the shortage of merchant marines 
out there that--are you finding it difficult to--on 96 hours 
really to staff a whole ship?
    Admiral Buzby. So far we have done extremely well. We 
actually do an annual exercise, which we just finished up to 
kind of do a paperwork drill to make sure that we can actually 
source bodies, we work very closely with the unions on that.
    This past September, we did a kind of mass activation of 13 
of these ships all at once. And we had no problem manning them 
up. So the shortfalls that we talk about are typically we would 
see 4 to 6 months down the road if we activated all of them.
    We typically have enough people. We may have a spot 
shortage here or there for a specific skill set, particularly 
on the steam ships because we are--that is the shortest skill 
set. But by and large manning on these smaller scales is not an 
issue right now.
    Mr. Cisneros. All right. And then when you activate these 
ships you said you have four active right now.
    Admiral Buzby. Yes, sir.
    Mr. Cisneros. Are we rotating those ships to make sure it 
is not just the same ships that are always activated.
    Admiral Buzby. Absolutely. It is really by mission. What 
the requirement is for that particular mission because these 
ships have different square footages, they have different deck 
strength and deck height. So it is what is required by the 
mission.
    But we typically don't go to the same ship coastwise; we do 
mix it up. And it is by coast where it is required.
    Mr. Cisneros. All right. And what is the--I know some of 
the ships are reaching their age limit as they are--well, like 
you said they are extending their life. And I am sure you 
probably answered this question already. But how long is it 
actually going to take us to really, to replace all these 
ships?
    Admiral Buzby. Right. The current Navy plan goes out about 
to 25 to 30 years before we have a full replacement of this 
fleet. That is through a combination of service life extensions 
out to age 60, through replacement with newer used ships. and 
through new construction ships.
    Mr. Cisneros. And the steam ships are first on the list?
    Admiral Buzby. Steam ships are going to be right up there 
except for there are a few that are special mission type ships 
that may require them to stick around a little while longer 
until we can get the proper replacement for them.
    But they certainly are going to be a priority just because 
of the manning that goes along with them.
    Mr. Cisneros. All right. Well, thank you for being here 
today.
    And Mr. Chairman, I yield back my time.
    Mr. Courtney. Thank you, Mr. Cisneros.
    I think we have done it, and I want to really thank both 
witnesses for your patience and thorough answers, although I am 
sure there will be some follow-up. And, again, we are 
definitely interested with the mark this year in both 
subcommittees, I am sure, in terms of trying to do everything 
we can to help achieve the goal here.
    So, again, just for the record, I would ask for unanimous 
consent that General Lyons' chart be made part of the record.
    Mr. Garamendi. Can we also put these charts----
    Mr. Courtney. And we have, I guess, additional charts. 
Okay.
    Mr. Garamendi. But if I might also for the record add 
charts that MARAD has passed around for some time. This is a 
more complete display of all of the ships that are in the Ready 
Reserve Fleet as well as those that are on the Maritime----
    Admiral Buzby. Security Program.
    Mr. Garamendi [continuing]. Security Program. Thank you.
    Mr. Courtney. All right. Any objections? Hearing none, we 
will have those entered in the record.
    [The charts referred to can be found in the Appendix on 
pages 72 and 73.]
    Again, thank you to both witnesses, and I hereby order this 
hearing closed.
    [Whereupon, at 3:47 p.m., the subcommittees were 
adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 7, 2019

     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2019

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 7, 2019

=======================================================================

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 7, 2019

=======================================================================

      

           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI

    General Lyons. After conducting an internal program review and a 
survey of decades of studies on the topic, three consistent themes 
emerge: 1) that DOD's assignment cycle exerts considerable strain on 
capacity during the summer months; 2) that the transactional nature of 
our relationship with industry prevents us from capitalizing on the 
capacity that is available; and 3) that the program is fractured. The 
fractured nature of the current Defense Personal Property Program 
(DP3)--both in terms of the number of Transportation Service Providers 
(TSPs) and disparate government offices trying to manage them--is a 
root cause of the capacity and quality issues reported by Service 
Members and DOD Civilians.
    The DOD is the largest single consumer of moving and storage 
services, accounting for 20% of the domestic household goods market, 
yet still competes with the broader population for assets. Under our 
current construct, each of the DOD's 42 regional shipping offices deals 
with a pool of TSPs and awards business on a shipment-by-shipment 
basis. In day-to-day operations, the transactional nature of this 
approach results in inefficient crew and truck utilization. More 
broadly, this transactional approach hinders industry's ability to 
conduct long-term planning, and with no meaningful forecast of what 
they can expect to move--offers no basis to invest in relationships 
with agents or assets to respond to DOD's very predictable demand. 
Centralizing demand planning with a single entity improves utilization 
of available capacity.
    In addition to better utilizing existing capacity, I believe this 
construct will attract new providers. Industry representatives who are 
currently unaffiliated with DP3 state that the program's existing over-
engineered rules make DOD an unattractive partner; while the DOD pays 
competitive rates, much of industry would rather serve the 80% of the 
non-DOD domestic moving and storage market.   [See page 31.]
    Admiral Buzby. MARAD's fleet meets all current dry cargo capacity 
and capability requirements as concluded by U.S. Transportation 
Command's (USTRANSCOM) 2018 Mobility Capabilities and Requirements 
Study. The RRF also meets the criteria defined in the Required 
Operational Capabilities-Projected Operational Environment instruction 
promulgated by the Office of the Chief of Naval Operations. While 
modernization of the fleet is always a consideration, the make-up of 
the fleet is determined by USTRANSCOM, Combatant Commands, and service 
specific requirements, as well as the overarching Department of Defense 
(DOD) guidance provided by Joint Staff and the Office of the Secretary 
of Defense (OSD). During 2015-2016, MARAD participated in the OSD Cost 
Assessment and Program Evaluation (OSD CAPE) Global Mobility-Strategic 
Portfolio Review, which resulted in no changes to the ship capabilities 
or composition of the RRF. MARAD is currently participating in the 
joint OSD CAPE/USTRANSCOM requirements study for the missions of 
auxiliary crane ships (T-ACS) and heavy lift ships (Cape M), and will 
also assist with the DOD's tanker study to look at petroleum movement 
requirements. MARAD works continuously with our DOD stakeholders for 
sealift and special capability ship acquisitions to meet existing 
operational requirements as well as future needs for recapitalization.   
[See page 30.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MRS. HARTZLER
    General Lyons. The DOD encounters the same set of challenges--and 
results--each peak season: quality capacity is lacking, DOD has limited 
accountability measures to drive improvements, and DP3 customers do not 
know who to call when things go wrong. Restructuring DOD's relationship 
with industry promotes long-term stability and investment that 
ultimately eliminates unnecessary friction and opacity for DP3 users. 
Building relationships with trusted suppliers and increasing 
accountability should lead to increased customer satisfaction.
    The DOD is the largest single consumer of moving and storage 
services, accounting for 20% of the domestic household goods market, 
yet still competes with the broader population for assets. Under our 
current construct, each of the DOD's 42 regional shipping offices deals 
with a pool of TSPs and awards business on a shipment-by-shipment 
basis. In day-to-day operations, the transactional nature of this 
approach results in inefficient crew and truck utilization. More 
broadly, this transactional approach hinders industry's ability to 
conduct long-term planning, and with no meaningful forecast of what 
they can expect to move--offers no basis to invest in relationships 
with agents or assets to respond to DOD's very predictable demand. 
Centralizing demand planning with a single entity improves utilization 
of available capacity. In addition to better utilizing existing 
capacity, I believe this construct will attract new providers. Industry 
representatives who are currently unaffiliated with DP3 state that the 
programs existing over-engineered rules make DOD an unattractive 
partner; while the DOD pays competitive rates, much of industry would 
rather serve the 80% of the non-DOD domestic moving and storage market.
    Many move managers and asset-based providers agree that DOD's 
business model is outdated, and recognize the business opportunities 
associated with this change. The opportunity to engage and invest in 
longer-term relationships and operate in an environment with other 
industry professionals free from DOD's artificially complex business 
rules is an attractive prospect.   [See page 27.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. KELLY
    General Lyons. After conducting an internal program review and a 
survey of decades of studies on the topic, three consistent themes 
emerge: 1) that DOD's assignment cycle exerts considerable strain on 
capacity during the summer months; 2) that the transactional nature of 
our relationship with industry prevents us from capitalizing on the 
capacity that is available; and 3) that the program is fractured. The 
fractured nature of the current DP3--both in terms of the number of 
Transportation Service Providers (TSPs) and disparate government 
offices trying to manage them--is a root cause of the capacity and 
quality issues reported by Service Members and DOD Civilians.
    The DOD is the largest single consumer of moving and storage 
services, accounting for 20% of the domestic household goods market, 
yet still competes with the broader population for assets. Under our 
current construct, the DOD relies on 42 regional shipping offices to 
manage the operations of 950+ Transportation Service Providers on a 
shipment-by-shipment basis. In day-to-day operations, the transactional 
nature of this approach results in inefficient crew and truck 
utilization. More broadly, this transactional approach hinders 
industry's ability to conduct long-term planning, and with no 
meaningful forecast of what they can expect to move--offers no basis to 
invest in relationships with agents or assets to respond to DOD's very 
predictable demand. Centralizing demand planning with a single entity 
improves utilization of available capacity.
    In addition to better utilizing existing capacity, I believe this 
construct will attract new providers. Industry representatives who are 
currently unaffiliated with DP3 state that the program's existing over-
engineered rules make DOD an unattractive partner; while the DOD pays 
competitive rates, much of industry would rather serve the 80% of the 
non-DOD domestic moving and storage market.
    In today's program, 14 companies either own or manage 90% of the 
950+ TSPs in the program. There are currently layers in the program 
that we do not understand, and some that we are likely unaware. Far 
from adding layers to the program, we seek to remove those layers that 
make it difficult for family members to know who to call when things go 
wrong and of that prevent money from flowing to those that actually 
deliver services to the curb.   [See page 24.]
    Admiral Buzby. The entity that contracts for vessels for the 
carriage of DOD fuel is Military Sealift Command (MSC) on behalf of the 
Defense Logistics Agency. MSC had 20 foreign flag charters, both voyage 
charters and short-term time charters, for the period April 1, 2018 
through March 31, 2019.   [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MRS. LURIA
    General Lyons. Planning and analysis of contingency sourcing 
solutions assumes that ships in MSP and VISA programs are expected to 
transit from their current location to their next port of call to 
download existing cargo and proceed to a designated seaport of 
embarkation. The timelines to reach the assigned seaport will vary. In 
coordination with commercial partners, we have done analysis to assess 
how this will likely play out in execution. Based on that analysis, we 
generally expect commercial vessels will arrive on berth between 
approximately 8 and 30 days based on each commercial vessel's 
historical patterns of operation, with an average of approximately 17 
days from notification until available for DOD tasking.   [See page 
17.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 7, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. LURIA

    Mrs. Luria. Does the ability of USTRANSCOM to respond to sealift 
contingency operations depend on the assumptions made in the Maritime 
Workforce Working Group?
    Does it concern you that if these assumptions are not correct, we 
may not be able to activate our entire Surge Sealift and RRF ships?
    General Lyons. Yes. For major contingency operations, force 
deployment and sustainment requirements are met through a combination 
of government-owned organic and commercial sealift capacity. As stated 
in the Maritime Workforce Working Group (MWWG) Report to Congress, 
operation of both the government-owned organic surge sealift fleet and 
the commercial fleet relies on a pool of current and qualified 
commercial merchant mariners.
    The National Security Directive on Sealift (NSD 28) gives the 
Department of Transportation (DOT) the responsibility to determine the 
adequacy of manpower (mariners) support operations during a crisis. The 
MWWG report is consistent with previous DOT evaluations that concluded 
that the mariner pool was sufficient to support the initial activation 
of the surge fleet, but would be challenged during a period of 
sustained operations during which crew rotations would be required on 
the organic and commercial fleets. Of most concern is the prolonged 
contraction of the internationally trading U.S.-Flag fleet and cargo 
opportunities needed to maintain the associated mariner pool.
    Mrs. Luria. What is the current no-notice activation success rate 
for MSC ships? MARAD ships?
    General Lyons. The no-notice activation (known as Turbo 
Activations) success rate for MSC ships over the last 10 years is 72%. 
The no-notice activation success rate for MARAD ships over the last 10 
years is 92%. Since 1 January 2018, six of seven MSC ships (86%) and 29 
of 30 MARAD ships (97%) successfully executed a no-notice activation.
    However, no-notice activation success for available vessels is only 
a partial indicator of readiness. Vessel availability in Reduced 
Operating Status Five-Days has steadily declined over the last several 
years. This fleet comprises a significant portion of the planned 
delivery capacity at an objective goal of 85% total square footage. In 
mid-April 2019, the overall surge fleet availability was 57% with MSC 
vessels at 41% and MARAD managed vessels at 68%. This decline in 
availability is directly attributed to the vessels' age-related reduced 
readiness and inadequate funding to keep pace with corresponding 
increases in maintenance costs. This reduced availability would 
directly impact the critical first sailing in the Time Phase Force 
Deployment Data flow, which would have a cascading impact throughout 
the sealift deployment. This problem is exacerbated since most organic 
vessels will be asked to turn three times. As described in the Mobility 
Capabilities and Requirements Study 2018 (MCRS-18), the state of surge 
sealift fleet readiness adds risk to meeting the NDS wartime deployment 
requirements.
    My top priority is maintaining sealift readiness to meet Department 
of Defense (DOD) force deployment and sustainment requirements. The 
organic sealift fleets are at an advanced age with the Ready Reserve 
Force at nearly 44 years old and the oldest in the fleet being 55 years 
old. Continued Service Life Extensions on existing aging ships will not 
provide readiness outcomes needed, but it will increase cost and risk. 
The acceleration of the acquisition of used vessels is the most 
practical means to alleviate readiness concerns in the near-term, and a 
significant portion of the fleet must be recapitalized with affordable 
vessels very soon.
    Mrs. Luria. Do no-notice activations require the ships to be 
underway for any specific period of time?
    General Lyons. No-notice activations (Turbo Activations) require 
the ships to be underway three to four days. However, this depends on 
the agenda for the Turbo Activation. A normal Turbo Activation will 
require three days at sea in order to allow a vessel to leave port, get 
out to sea, go through the at-sea agenda items, and return to berth. If 
contested environment (CE) training is added to the agenda, the CE 
agenda items will take place after the at-sea agenda items are 
completed, necessitating another day or two at sea depending on the 
extent of the CE agenda.
    Mrs. Luria. Is that time sufficient to give you confidence that 
they can be ready to complete the entire embarkation and debarkation 
required for contingencies?
    General Lyons. The purpose of Turbo Activations is to validate the 
readiness of vessels through evaluation of their ability to meet 
activation time standards and DOD mission requirements, and in-so-doing 
to provide USTRANCOM with an assessment of the entire Organic Surge 
Fleet. Turbo Activation exercises validate the readiness of selected 
MSC Surge and Ready Reserve Force vessels to effectively transition 
from Reduced Operational Status (ROS) to Full Operating Status within 
the ROS ``days to activate'' readiness timeframe and to verify vessel 
maintenance programs. For the limited number of fully mission-capable 
vessels in the RRF and Surge Sealift fleet, our analysis indicates a 
strong correlation between the ability to successfully activate and the 
ability to operate reliably for approximately 180 days; however, other 
readiness factors indicate that fewer than 60% of the RRF and surge 
sealift fleets could meet mission requirements today.
    Mrs. Luria. Can you please make the activation data available to my 
office?
    General Lyons. The activation data is attached.
    [The information referred to was not available at the time of 
printing.]
    Mrs. Luria. Your staff and component commands conduct sealift 
contingency sourcing solutions for different OPLANS and CONPLANS based 
on a specific C-day, is that correct?
    General Lyons. Correct, USTRANSCOM conducts sealift contingency 
sourcing solutions for different OPLANS and CONPLANS based on a 
specific C-day.
    Mrs. Luria. Is it correct that this contingency sourcing solution 
assumes that ships in the MSP and VISA program will be ready to load 
cargo in 10 days?
    General Lyons. No. Pending notification, commercial vessels are 
expected to transit from their current location to their next port of 
call to download existing cargo and proceed to a designated seaport of 
embarkation. The timelines to reach the assigned seaport will vary. In 
coordination with commercial partners, we have done analysis to assess 
how this will play out in execution; in light of that, we generally 
expect commercial vessels will arrive on berth between approximately 8 
and 30 days, with an average of approximately 17 days.
    Mrs. Luria. Does this contingency sourcing take into account where 
the ships are in the world or do we just assume that they will be 
available in 10 days?
    General Lyons. Contingency sourcing does take into account where 
the ships are in the world. USTRANSCOM uses an analytic estimate of the 
likely position of each vessel based on their historical commercial 
activity locations, consistent with the previous answer.
    Mrs. Luria. What I am getting at here, is that I have serious 
concerns about our ability to meet the most stressing OPLANs based on 
some of the assumptions we have made on mariners, the assumptions we 
have made about the MSP and VISA ship availability and the current 
condition of the sealift and Ready Reserve Fleet. Do you share these 
concerns because just a few weeks ago, LT GEN Broadmeadow said at a 
committee hearing that we were able to meet initial sealift 
requirements?
    General Lyons. The current VISA (which include the MSP fleet) and 
Ready Reserve Fleet capacity is sufficient to meet initial sealift 
requirements, but reduced readiness degrades availability for fleet-
level generation. While the mariner pool is sufficient for activating 
the fleet, it will be challenged to sustain prolonged operations for 
more than 180 days. As described in the Mobility Capabilities and 
Requirements Study 2018 (MCRS-18), readiness of the surge sealift fleet 
adds risk to meeting the NDS wartime deployment requirements and near-
term recapitalization of the organic surge/RRF is necessary to improve 
readiness and avoid further risk.
    Mrs. Luria. Other than the contractual requirement for the 
operating companies to man and get the ships underway, is there a 
specific requirement for the mariners in the Commercially Owned 
Coastwise/Ocean Going fleet to man these ships?
    Admiral Buzby. The U.S. merchant marine, for the most part, is a 
volunteer, civilian work force. Mariners seek employment through 
multiple maritime labor unions, private ship operating companies, and 
crewing agencies. Other than seagoing mariners under a service 
obligation for U.S. Merchant Marine Academy attendance or receipt of 
Student Incentive Payments at State Maritime Academies, assignment to a 
U.S.-flag ship is for the purpose of employment and is voluntary. For 
ships engaged in foreign trade, mariners normally sign an agreement 
with the ship's Master detailing the length of the voyage and the ports 
to be visited. Under such an agreement, a mariner commits to serving 
for the entire voyage until their return to a U.S. port.
    Mrs. Luria. Is there an incentive for personnel to volunteer to man 
the RRF and Sealift fleet?
    Admiral Buzby. Patriotism, gainful employment, and the ability to 
obtain sea-time for credentialing purposes are the incentives to crew 
Ready Reserve Fleet (RRF) or other sealift ships. While some 
assignments include imminent danger pay or ammunition bonuses, these 
are earned benefits received for taking on a hazardous assignment while 
in the service of the vessel. Historically, U.S. Merchant Mariners have 
struggled for receipt of benefits, like those provided by the G.I. 
Bill, including those mariners who served during World War II. These 
are some of the reasons MARAD pushed for legislation and received 
authority to grant re-employment rights for mariners who volunteer to 
crew our sealift ships, leaving shore side employment temporarily when 
the Nation calls (see 46 U.S.C. Sec. 52101).
    Mrs. Luria. So for every 26 people that don't volunteer, we can't 
get one ship underway, is that correct?
    Admiral Buzby. There is a means to sail a ship ``short'' of its 
statutory complement of credentialed crewmembers; however, this option 
is rarely implemented. Sailing short is more common overseas in the 
event of crew member illness or misconduct when the member is 
discharged during the foreign voyage and repatriated. Additionally, 
MARAD has a Memorandum of Agreement with the Secretary of the Navy for 
mobilization of Navy Reserve members of the Strategic Sealift community 
to augment the RRF crews of sealift ships. However, without adequate 
mariners that step-up and voluntarily take positions on these vessels, 
we could have trouble keeping the ships underway for long durations. 
This issue becomes even more problematic particularly with the senior 
positions on those vessels, such as Master, Chief Mate, Chief Engineer, 
and First Assistant Engineer positions.
    Mrs. Luria. In the Maritime Workforce Working Group there are a 
number of recommendations to solve this problem. However, we cannot 
wait any longer. My concern is not for 10 years in the future when 
these recommendations are implemented, but can we get our ships 
underway tomorrow?
    Admiral Buzby. Yes, we can get RRF ships underway tomorrow, but may 
not be able to sustain a prolonged sealift mobilization beyond six 
months. MARAD conducts an annual exercise, in coordination with the 
Military Sealift Command (MSC), U.S. Navy Reserve, U.S. Coast Guard 
(USCG), maritime labor unions, ship managers and operating companies, 
and the American Bureau of Shipping, to identify shortfalls in crewing. 
MARAD is working closely with the U.S. Transportation Command 
(USTRANSCOM), MSC, USCG, and the commercial maritime industry to 
develop proposals to maintain an adequate number of trained mariners, 
and to ensure our mariners receive specialized training to operate in 
contested waters, such as chemical, biological, and nuclear defense 
training, marksmanship, and shipboard damage control in the event of an 
attack. Additionally, we are working to better track licensed mariners 
who may no longer be sailing, but could serve if needed, and to develop 
tools to understand and analyze changes in the numbers of fully 
qualified mariners trained and available to meet the Nation's 
commercial and sealift requirements at any given time.

                                  [all]
</pre></body></html>
